<html>
<title> - H.R. 511, H.R. 708, H.R. 1038 and H.R. 1651</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
              H.R. 511, H.R. 708, H.R. 1038 and H.R. 1651

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             June 19, 2003

                               __________

                           Serial No. 108-30

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
87-805 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2003....................................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................    47
        Prepared statement on H.R. 511...........................    47
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement on H.R. 1038.........     2
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California, Oral statement on H.R. 1651.......    17
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................     2
    Tancredo, Hon. Thomas, a Representative in Congress from the 
      State of Colorado..........................................     3
        Prepared statement on H.R. 1038..........................     4
    Thompson, Hon. Mike, a Representative in Congress from the 
      State of California........................................    49
        Prepared statement on H.R. 708...........................    49

Statement of Witnesses:
    Estill, Elizabeth, Deputy Chief, Programs, Legislation and 
      Communications, Forest Service, U.S. Department of 
      Agriculture,...............................................
        Oral statement on H.R. 511...............................    48
        Oral statement on H.R. 708...............................    50
        Oral statement on H.R. 1038..............................     8
        Oral statement on H.R. 1651..............................    18
        Prepared statement on H.R. 511, H.R. 708, H.R. 1038, and 
          H.R. 1651..............................................     9
    Fielder, John R., Senior Vice President, Southern California 
      Edison Company.............................................    34
        Prepared statement on H.R. 1651..........................    35
    Glassman, Robert, Property Owner.............................    19
        Prepared statement on H.R. 1651..........................    20
    Parkinson, Larry R., Deputy Assistant Secretary, Law 
      Enforcement and Security, U.S. Department of the Interior..    11
        Prepared statement on H.R. 1038..........................    13
    Perkins, Jan T., Esq., Chairman, National Advancement 
      Committee, The National Council of the Boy Scouts of 
      America....................................................    21
        Prepared statement on H.R. 1651..........................    23


 LEGISLATIVE HEARING ON H.R. 1651, TO PROVIDE FOR THE EXCHANGE OF LAND 
WITHIN THE SIERRA NATIONAL FOREST, CALIFORNIA, AND FOR OTHER PURPOSES; 
 H.R. 1038, TO INCREASE THE PENALTIES TO BE IMPOSED FOR A VIOLATION OF 
 FIRE REGULATIONS APPLICABLE TO THE PUBLIC LANDS, NATIONAL PARK SYSTEM 
 LANDS, OR NATIONAL FOREST SYSTEM LANDS WHEN THE VIOLATION RESULTS IN 
DAMAGE TO PUBLIC OR PRIVATE PROPERTY, TO SPECIFY THE PURPOSE FOR WHICH 
COLLECTED FINES MAY BE USED, AND FOR OTHER PURPOSES; H.R. 511, TO MAKE 
  CERTAIN ADJUSTMENTS TO BE BOUNDARIES OF THE MOUNT NAOMI WILDERNESS 
 AREA, AND FOR OTHER PURPOSES; AND H.R. 708, TO REQUIRE THE CONVEYANCE 
 OF CERTAIN NATIONAL FOREST SYSTEM LANDS IN MENDOCINO NATIONAL FOREST, 
CALIFORNIA, TO PROVIDE FOR THE USE OF THE PROCEEDS FROM SUCH CONVEYANCE 
         FOR NATIONAL FOREST PURPOSES, AND FOR OTHER PURPOSES.

                              ----------                              


                             June 19, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 12:35 p.m., in 
room 1334, Longworth House Office Building, Hon. Rick Renzi, 
presiding.
    Present: Representatives Renzi, Inslee, Petersen, Duncan, 
Pearce, Tancredo, Jones, Radanovich, Hayworth, Flake, Rehberg, 
Bishop, and Thompson.
    Mr. Renzi. [presiding] This Subcommittee on Forests and 
Forest Health will come to order. The Subcommittee will 
reconvene to hear testimony on H.R. 1038, Public Lands Fire 
Regulation Enforcement Act of 2003; H.R. 1651, Sierra National 
Forest Land Exchange Act of 2003; H.R. 511, Boundary Wilderness 
Boundary Adjustment Act; and H.R. 708, Conveyance of Certain 
National Forest System Lands in the Mendocino National Forest 
of California.
    I ask for unanimous consent that Representatives Bishop and 
Thompson have permission to sit on the dais and participate in 
the hearing. Hearing no objections, so ordered. Under Committee 
Rule 4G, the Chairman and Ranking Minority Member may make 
opening statements. If any other members have statements, they 
can be included in the record under unanimous consent.

STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Renzi. To begin, H.R. 1038, Public Lands Fire 
Restoration Enforcement Act of 2003 would increase penalties 
imposed for the violation of fire regulations applicable to 
public lands when the violations result in damage to public or 
private property. To specify the purpose for which collective 
fines may be used, and for other purposes.
    I want to thank my colleague, Mr. Tancredo, for introducing 
this important legislation. From 1988 to 1997, human negligence 
caused a startling seven times the fires caused by lighting. 
This is a signal that something needs to be done. I believe 
that it will provide a significant deterrent to those who would 
act recklessly with fire when a threat of catastrophic fire is 
at its highest.
    The deterrent value of current law is laughable and non-
existent, and so I commend Mr. Tancredo for attaching the 
significant shortfall in the law. I would also like to mention 
that our Committee staff has been working with Mr. Tancredo and 
the Forest Service to make some technical changes that would 
clarify the intent of the bill.
    I look forward to working with the Forest Service in the 
future to ensure that technical corrections are made. The 
gentleman from Washington, Mr. McInnis, is not with us today, 
and so I am filling in for him. I would ask Mr. Inslee from 
Washington, our Ranking Minority Member, if he has any opening 
statements.
    [The prepared statement of Mr. McInnis follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
        Subcommittee on Forests and Forest Health, on H.R. 1038

    H.R. 1038, ``The Public Lands Fire Regulations Enforcement Act of 
2003'', would increase penalties imposed for the violation of fire 
regulations applicable to public lands when the violation results in 
damage to public or private property, to specify the purpose for which 
collected fines may be used, and for other purposes.
    I want to thank my colleague and fellow Coloradan, Mr. Tancredo for 
introducing this important legislation. From 1988 to 1997 human 
negligence started a startling 7-times the fires caused by lighting. 
This is a signal to me that something needs to be done. I'm a cosponsor 
of Mr. Tancredo's bill and I believe it will provide a significant 
deterrent to those who would act recklessly with fire when the threat 
of catastrophic fire is at its highest. The deterrent-value of current 
law is laughable and non-existent, and so I commend Mr. Tancredo for 
attaching this significant short-fall in the law.
    I'd also like to mention that my staff has been working with Mr. 
Tancredo and the Forest Service to make some technical changes that 
would clarify the intent of the bill. I look forward to working with 
Forest Service in the future to ensure the technical corrections are 
made.
                                 ______
                                 
    Mr. Inslee. I have no opening. I have some questions.
    Mr. Renzi. Thank you, Mr. Inslee.
    I would ask the author of the bill, Mr. Tancredo of 
Colorado, if he has an opening statement.

 STATEMENT OF THE HON. THOMAS G. TANCREDO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tancredo. Yes, Mr. Chairman, I do. Thank you very much. 
I want to thank you for scheduling a hearing on the bill, and I 
thank Mr. McInnis for doing so, and I would like to thank Mr. 
Udall for joining me as an original co-sponsor in introducing 
the legislation.
    As the Chairman said, H.R. 1038 is simple. It is to enhance 
the penalties for those seeking to jeopardize the safety of our 
communities by disregarding fire restrictions on public lands.
    Over the last 10 years, people have been responsible for 
the ignition of just over 1 million wildfires on our public 
lands, around 100,000 wildfires a year caused by human 
carelessness.
    By comparison, lighting has caused about one-tenth as many 
fires over the same period. The current penalties for violating 
fire regulations vary from agency to agency. In a practical 
sense, however, the fines are generally assessed at a far lower 
level.
    In fact, under current laws, fines, or collaterals as they 
are called, are generally set in the range of about $25 to 
$100, a little more than the cost of a seat belt ticket in most 
States.
    I believe, as I think most people do, that these weak 
penalties lack any real deterrent value for would be violators. 
Mr. Chairman, last year when the Committee unanimously approved 
this measure, I related a story about a conversation that I had 
with a small group of Forest Service Rangers and a fireman in 
my district just prior to the Hayman fire.
    One of them told me a story about how a perspective visitor 
to the Pike National Forest had contacted him inquiring about 
the potential fines for violating a recently imposed ban on 
camp fires.
    After the District Ranger explained that the fine for 
constructing a camp fire during the fire ban was around $25, 
the caller asked if there was any way that he could pay the 
fine in advance. Exactly.
    Late last summer, well after the imposition of the fire ban 
by both the Governor and the forest supervisor, I was flying 
over the Hayman fire with that same district manager or 
district ranger.
    In addition to having a birds-eye view of the largest 
wildfire in the State's history, the two of us also had an 
excellent view of several campfires dotting the landscape 
outside its perimeter.
    The district ranger told me that even in the midst of a 
fire season like the one that we had in Colorado last year, 
where some 800 human-caused wildfires destroyed over a quarter-
of-a-million acres, that enforcing the ban was a continuing 
problem, in large part because the fines were so small.
    Enhancing the penalties for those who choose to disregard 
the directives of our land managers may be one way that we can 
reduce both the number of human-caused wildfires and the 
terrible destruction that they leave in their wake by creating 
a deterrent.
    I am less concerned about how these violations are 
classified than I am about giving penalties for these 
violations some teeth. After losing some 7 million acres of 
forests last year to wildfires, many of them started by 
thoughtless people disregarding fire restrictions, it is clear 
that the status quo is not providing an adequate deterrent.
    I have asked legislative counsel to prepare an amendment in 
the nature of a substitute that you have in your folders in 
order to address some of the technical changes in the original 
bill and to address a few changes brought to my attention by 
the staff of the Forest Service.
    In a nutshell, Mr. Chairman, the focus of the bill is to 
enhance the penalties for violation of fire regulations as I 
said to a minimum fine of $1,000 on all Interior and Forest 
Service lands when fire bans are in place.
    Money collected under these enhanced penalties would be 
used to cover the costs of rehabilitation work rendered 
necessary by the violation, and to help facilitate public 
awareness of rules, regulations, and other requirements 
regarding the use of fire on public lands.
    As I alluded to earlier, I am more interested in enhancing 
these weak penalties than I am in the technical details of how 
we do it. The bottom line is that we shelled out almost $2 
billion to fight wildfires last year, much of it to fight fires 
that were started by people when well publicized fire bans were 
in place.
    We need to make sure that people who play with fire on our 
public lands get burned, and to let would be violators know 
that if they make a choice to violate a fire ban that they will 
get hit in the pocketbook. I look forward to working with the 
Committee and the agency to work out the technical concerns 
prior to the markup of the bill. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tancredo follows:]

  Statement of The Honorable Thomas G. Tancredo, a Representative in 
           Congress from the State of Colorado, on H.R. 1038

    Mr. Chairman, I would like to thank you for scheduling a hearing on 
the bill today, and I would also like to thank you and Mr. Udall for 
joining me as original cosponsors in introducing this legislation. The 
purpose H.R. 1038 is simple: To enhance the penalties for those people 
who jeopardize the safety of our communities by disregarding fire 
restrictions on public lands.
    Over the last ten years, people have been responsible for the 
ignition of just over one million wildfires on our public lands. That 
is around 100,000 wildfires per year--on average--that are caused by 
human carelessness. By comparison, lighting has caused only about one-
tenth that many fires over the same time period.
    The current penalties for violating fire regulations vary from 
agency to agency. In a practical sense, however, the fines are 
generally assessed at a far lower level. In fact, under current law, 
fines--or ``collaterals'' as they are called, are generally set in the 
range of $25 to $100--little more than the cost of a seatbelt ticket in 
most states. I believe, as I think most people do, that these weak 
penalties lack any real deterrent value for would-be violators.
    Mr. Chairman, last year when the Committee unanimously approved 
this measure, I related a story about a conversation I had with a small 
group of Forest Service rangers and firemen in my district just prior 
to the Hayman Fire. One of them told me a story about how a prospective 
visitor to the Pike National Forest had contacted him inquiring about 
the potential fines for violating a recently imposed ban on campfires. 
After the district ranger explained that the fine for constructing a 
campfire during the fire ban was around $25, the caller asked if there 
was a way to pay the fine in advance.
    Late last summer--well after the imposition of the fire ban by both 
the Governor and the Forest Supervisor--I was flying over Hayman Fire 
with that same district ranger. In addition to having a birds-eye view 
of the largest wildfire in state history, the two of us also had an 
excellent view of several campfires dotting the landscape outside its 
perimeter. He told me that even in the midst of a fire season like the 
one we had in Colorado last year--where some 800 human caused wildfires 
destroyed over a quarter of a million acres--that enforcing the ban was 
a continuing problem, in large part because the fine is so small.
    Enhancing the penalties for those who choose to disregard the 
directives of our land managers may be one way we can reduce both the 
number of human caused wildfires and the terrible destruction they 
leave in their wake by creating a deterrent. I am less concerned about 
how these violations are classified than I am about giving penalties 
for these violations some teeth. After losing some seven million acres 
of forest last year to wildfires--many of them started by thoughtless 
people disregarding fire restrictions--it is clear that the status quo 
is not providing an adequate deterrent.
    I have asked Legislative Counsel to prepare an amendment in the 
nature of a substitute (that you have in your folders) to address some 
technical changes in the original bill, and to address a few changes 
brought to the attention of my staff by the Forest Service. In a 
nutshell, Mr. Chairman, the focus of the bill is to enhance the 
penalties for violations of fire regulations to, as I said, a minimum 
fine of $1000 on all Interior and Forest Service lands when fire bans 
are in place. Money collected under these enhanced penalties would be 
used to cover the costs of rehabilitation work rendered necessary by 
the violation and to help facilitate public awareness of rules, 
regulations, and other requirements regarding the use fire on public 
lands.
    As I alluded to earlier, I am more interested in enhancing these 
weak penalties than I am in the technical details of exactly how we do 
it. The bottom line is that we shelled out almost $2 billion to fight 
wildfires last year, much of it to fight fires that were started by 
people when well publicized fire bans were in place. We need to make 
sure that people who play with fire on our public lands get burned, and 
to let would-be violators know that if they make a choice to violate a 
fire ban, they will get hit in the pocketbook.
    I look forward to working with the Committee and the agency to work 
out these technical concerns prior to markup of the bill.
    Thank you Mr. Chairman.
                                 ______
                                 
    [The amendment offered by Mr. Tancredo follows:]
    [GRAPHIC] [TIFF OMITTED] T7805.013
    
    [GRAPHIC] [TIFF OMITTED] T7805.014
    
    [GRAPHIC] [TIFF OMITTED] T7805.015
    

    Mr. Renzi. Thank you, Mr. Tancredo, for your statement. I 
now want to recognize the witnesses for 5 minutes each.
    We will begin with Elizabeth Estill. Thank you.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
LEGISLATION AND COMMUNICATIONS, FOREST SERVICE, U.S. DEPARTMENT 
                         OF AGRICULTURE

    Ms. Estill. Thank you, and thank you for the opportunity to 
present the views of the U.S. Department of Agriculture. We 
commend Mr. Tancredo and the co-sponsors of H.R. 1038 for their 
timely efforts through this bill to try to decrease the number 
of destructive and costly human-caused wildfires.
    Our records show that there were 73,457 wildfires in the 
United States last year, of which over 62,000 were human 
caused. Terribly destructive. We support the goal of H.R. 1038, 
but as has already been stated, we would like to continue to 
work with the Subcommittee on some modifications that we 
believe would improve the bill.
    We understand also that the Department of Justice will be 
providing the Committee with a letter that will describe a 
number of technical and substantive issues that will need to be 
addressed for this bill to accomplish its very worthy goal.
    We appreciate the interest of the sponsor and the 
Subcommittee in addressing the fire penalties issue, and your 
willingness to work with us to address the many law enforcement 
challenges that we face.
    We welcome your continued assistance and would be happy to 
work with the Subcommittee to achieve improved fire prevention 
and certainly more effective Federal law enforcement and 
prosecution. Thank you.
    [The prepared statement of Ms. Estill follows:]

 Statement of Elizabeth Estill, Deputy Chief, Programs, Legislation, & 
Communications, Forest Service, U.S. Department of Agriculture, on H.R. 
           511, H.R. 708, H.R. 1038, H.R. 1651, and H.R. 2416

    Thank you for the opportunity to appear before you today. I am 
Elizabeth Estill, Deputy Chief for Programs, Legislation, and 
Communications, USDA Forest Service.
    I would like to present the Department's views on H.R. 511'' the 
Mount Naomi Wilderness Boundary Adjustment Act, H.R. 708--Mendocino 
National Forest Land Exchange, H.R. 1038--the Public Lands Fire 
Regulations Enforcement Act of 2003, H.R. 1651--the Sierra National 
Forest Land Exchange Act of 2003, and H.R. 2416--the Paleontological 
Resources Preservation Act.
H.R. 511--Mount Naomi Wilderness Boundary Adjustment Act
    The Department supports H.R. 511, a bill that would adjust the 
boundary of the Mount Naomi Wilderness in the Wasatch-Cache National 
Forest in Utah. We believe the boundary adjustment will add to a higher 
level of wilderness values, including solitude, scenery, and pristine 
qualities.
    The boundary adjustment would exclude approximately 31 acres of 
land currently part of the Mount Naomi Wilderness and would add, in 
accordance with valid existing rights, 31 acres to the wilderness area. 
The bill also requires the Secretary to manage the 31 additional acres 
pursuant to the Utah Wilderness Act of 1984 (Public Law 98-428).
    This adjustment would provide for the alignment of the Bonneville 
Shoreline trail, a multi-county recreational trail designed 
predominately for heavy non-motorized use and which does not conform to 
the criteria of a wilderness trail. The boundary adjustment would also 
eliminate the need for a power line easement within the wilderness 
area, another non-conforming use.
H.R. 708--Mendocino National Forest Land Exchange
    H.R. 708 authorizes the direct sale of two parcels comprising 120.9 
acres of National Forest System lands on the Mendocino NF in California 
to the Faraway Ranch. Various improvements and facilities have been 
constructed on these lands and they have lost much of their National 
Forest character. This bill provides Faraway Ranch the opportunity to 
acquire these lands associated with their improvements and activities 
and allows the Forest Service to utilize the receipts to acquire 
replacement lands elsewhere in California.
    At the time of conveyance, Faraway Ranch will make full payment of 
the fair market value as determined by an appraisal that conforms to 
the Federal appraisal standards and is acceptable to the Secretary as 
well as cover all direct costs associated with completing this 
transaction. The Department supports this bill because it will improve 
management efficiency for the forest while recognizing the value of the 
public's assets.
H.R. 1038--the Public Lands Fire Regulations Enforcement Act of 2003
    We commend Mr. Tancredo and the co-sponsors of H.R. 1038 for their 
timely efforts through this bill to decrease the number of destructive 
and costly human-caused wildfires. Our records show that there were 
73,457 wildfires in the United States last year, of which over 62,000 
were human-caused. Out of 7 million acres burned last year, human-
caused fires were responsible for slightly more than 3 million acres.
    We support the goal of H.R. 1038, but would like to work with the 
Subcommittee on some modifications that we believe would improve the 
bill. We would like to thank the Subcommittee for seeking new and 
innovative approaches to reduce human-caused fires on Federal lands and 
raising the public's awareness of the laws and consequences of 
violating them.
    We understand the Department of Justice will be providing the 
Committee a letter that will describe a number of technical and 
substantive issues that will need to be addressed for this bill to 
accomplish its goal.
    We support the intent and emphasis that H.R. 1038 embodies 
concerning fire-related violations. We suggest that the Subcommittee 
consult with the Department of Justice and Administrative Office of the 
U.S. Courts to further assess the effects this bill may have on 
prosecutorial resources within the Department and the courts.
    We appreciate the interest of the sponsor and the Subcommittee in 
addressing the fire penalties issue and your willingness to work with 
us to address the many law enforcement challenges we face. We welcome 
your continued assistance and would be happy to work with the 
Subcommittee to achieve improved fire prevention and Federal law 
enforcement and prosecution.
H.R. 1651 Sierra National Forest Land Exchange Act of 2003
    H.R. 1651 authorizes the exchange of 160 acres of Federal land on 
the Sierra National Forest in California with 80 acres of non-Federal 
land within one year. A portion of the Federal parcel is subject to an 
existing Federal hydropower license. The Department supports H.R. 1651 
as introduced. The bill will provide for the exchange of a private in-
holding for two isolated parcels of Federal land, thus improving 
management efficiency for the Sierra National Forest.
    The bill specifies the value of the Federal land to be $250,000 and 
the value of the non-Federal land to be $200,000. H.R. 1651 gives the 
Secretary the authority to accept a cash equalization payment in excess 
of 25 percent of the value of the Federal land. These funds shall be 
available for the acquisition of lands and interests in lands for the 
National Forest System in the State of California. The conveyance is 
subject to a condition that the recipient of the Federal land will 
agree to convey the land, within a time period agreed to by the 
Secretary and the recipient, to the Sequoia Council of the Boy Scouts 
of America. The conveyance will also be made subject to valid existing 
rights and this or a similar provision needed to insure the continued 
operation of the FERC license held by Southern California Edison.
    We understand that one or more amendments to this bill may be under 
consideration by the sponsor. We would like to work with the 
Subcommittee to provide our comments on any proposed changes in the 
bill.
    As H.R. 708, the Mendocino National Forest Land Exchange and H.R. 
1651 illustrate, the Department has a number of facilities and 
appurtenant administrative land excess to agency needs. The Fiscal Year 
2004 Budget contains a proposal for the establishment of a Facilities 
Acquisition and Enhancement Fund that would enable the Secretary to 
sell such units and to utilize proceeds from those sales for the 
acquisition or development of land and improvements for administrative 
purposes. Funds collected under this authority would address backlogs 
and administrative consolidations while improving efficiencies. The 
Department will submit proposed legislation to establish this Fund in 
the upcoming weeks.
H.R. 2416--the Paleontological Resources Preservation Act
    H.R. 2416, the Paleontological Resources Preservation Act 
recognizes that paleontological resources, especially vertebrate 
fossils, are heritage resources which provide opportunities for the 
public to learn more about ancient ecosystems and the development of 
life. The Forest Service, as steward of these heritage resources is 
committed to their protection while providing opportunities for 
research, education, and recreation. The Department supports the 
purpose of this bill, but would like to work with the Subcommittee on 
some aspects.
    H.R. 2416 directs the Secretary of the Interior and the Secretary 
of Agriculture to manage and protect paleontological resources using 
scientific principles. The bill recognizes the non- renewable nature of 
fossils and defines paleontological resources as fossilized remains 
preserved in or on the Earth's crust. This distinguishes these 
resources from archeological resources, covered under the 
Archaeological Resources Protection Act (ARPA); cultural items, covered 
under the National Historic Preservation Act and the Native American 
Graves Protection and Repatriation Act (NAGPRA); and mineral resources.
    An important aspect of this bill is its formal recognition that 
casual collection of invertebrate and plant fossils for recreational 
non-commercial use is a valid public activity on National Forest System 
lands unless there is an overriding land-use designation. If enacted, 
the bill would establish collection provisions for paleontological 
resources including permitting requirements for scientific and 
educational purposes as well as recreational collection of rocks and 
minerals for personal use. Currently, there is a complex mix of laws, 
regulations and guidelines that have created significant 
jurisprudential challenges. We support penalties that are consistent 
with recent amendments to the Federal sentencing guidelines of the U.S. 
Sentencing Commission for increased penalties for cultural heritage 
resources.
    H.R. 2416 also provides that the proceeds arising from civil and 
criminal penalties established under the bill may be available for 
payment to those who provided information in investigations that lead 
to the civil violations or criminal convictions for which the penalties 
were assessed. However, the current reward language in Section 11 
provides a maximum reward amount that we believe will be ineffective in 
most cases. We believe that the appropriate reward amount to be offered 
or paid for assistance in investigations is best determined by the 
agency and prosecutor based on the significance of the case and 
assistance provided or needed.
    In addition to the recommendations just mentioned we would like to 
work with the Subcommittee to make several minor technical 
improvements.
    This concludes my testimony and I would be happy to answer your 
questions.
                                 ______
                                 
    Mr. Renzi. Thank you, Ms. Estill.
    I want to recognize now Mr. Parkinson for 5 minutes.

 STATEMENT OF LARRY PARKINSON, DEPUTY ASSISTANT SECRETARY, LAW 
   ENFORCEMENT AND SECURITY, U.S. DEPARTMENT OF THE INTERIOR.

    Mr. Parkinson. Thank you, Mr. Chairman. It is a pleasure to 
be here today. I am Larry Parkinson, Deputy Assistant Secretary 
for Law Enforcement and Security, and I am here to represent 
the Department of the Interior's views on this legislation.
    I want to start by thanking Congressman Tancredo and the 
co-sponsors of H.R. 1038 for their leadership on this issue, 
and for their efforts to reduce destructive and costly human 
caused wildfires. As Ms. Estill noted, we also want to work 
with the Committee on some technical changes that we think will 
improve the legislation.
    After the devastating effects of the 2000 and 2002 fire 
seasons, we are all keenly aware of the destructive nature of 
wildland fire. Those effects are even more tragic when the 
fires are caused by human beings.
    The resulting loss of life and property ultimately change 
lives forever obviously. For example, the Hayman fire, which 
started on July 2nd of last year, took 17 days to control. It 
destroyed more than 137,000 acres at a cost to the taxpayers of 
over $39 million.
    Approximately 600 structures were destroyed, including 133 
private residences. Similarly, the Rodeo-Chediski fire, which 
began a few weeks earlier than that, took 20 days to control, 
and consumed 455,000 acres, and it cost the taxpayers about $50 
million, and that fire destroyed about 450 homes.
    Obviously these figures demonstrate that the cause of these 
human caused fires, the results are devastating. As currently 
drafted the bill applies to lands managed by the Bureau of Land 
Management, the National Park Service, and the Forest Service.
    The bill states that the violation of the rules regulating 
the use of fires by visitors and others would be punishable by 
a fine of not less than $1,000 or imprisonment for no more than 
a year, or both, if the violation results in damage to public 
or private property.
    Currently the BLM and the National Park Service within the 
Interior operate under different rules for criminal penalties. 
For the National Park Service, they are similar to the Forest 
Service int his respect; those violations are currently 
classified as Class B misdemeanors, which results in a fine up 
to $5,000 maximum, or up to 6 months in prison.
    Those violations are strict liability in nature, which 
means that you do not have to prove intent in order to 
prosecute the offense. For BLM, the Bureau of Land Management, 
it is a little bit different.
    Those violations under BLM are currently Class A 
misdemeanors, which may result in a fine of up to $100,000 
maximum, or imprisonment up to 1 year. For Class A violations, 
one must demonstrate when prosecuting the offender that the 
party knowingly violated the law. So there is a significant 
difference in prosecution standards.
    And it is important to note that the current penalties do 
not mandate a minimum fine for either Class A or Class B 
misdemeanors. One thing the bill attempts to do is to establish 
a floor.
    As Ms. Estill noted in her testimony, we do understand that 
the Department of Justice will be providing the Committee a 
letter that will describe a number of technical, as well as 
substantive, issues that we think need to be addressed in order 
to accomplish the goals of this legislation.
    Additionally, because DOJ and not the Department of the 
Interior, or the Forest Service, makes the final decisions on 
prosecutions and penalties with respect to these violations. 
They obviously are an integral participant in all prosecutorial 
decisions and judicial proceedings. So we need to have their 
views as we perfect this bill.
    We also think that it would probably be useful to have the 
administrative office of the U.S. Courts involved in these 
discussions to assess the effects on the courts. And as a 
Federal Prosecutor in a former life, I can certainly attest to 
the fact that we need the Justice Department and the U.S. 
Attorneys on board as we go forward here.
    As noted earlier, we would like to work also with the 
Subcommittee on some modifications to ensure that we include 
other entities within this legislation. As I indicated, that 
currently it refers to Forest Service, BLM, and the National 
Park Service.
    We would like to discuss, and I think the intent of the 
legislation, is to be more comprehensive, including lands 
managed by the U.S. Fish and Wildlife Service, which include 
our national refuge system, and the Bureau of Indian Affairs.
    By way of background, in 2002, over 240 human-caused fires 
occurred within the National Wildlife Refuge System, which is 
part of the Fish and Wildlife Service. And 53 of those were the 
result of arson.
    And during the last 10 year period between 1992 and 2001, 
the Bureau of Indian Affairs reported a total of 9,643 arson-
caused fires in Indian country that burned over 210,000 acres. 
I thank you again for your leadership on this issue, 
particularly Mr. Tancredo, and the co-sponsors, and I look 
forward to working with the Committee.
    [The prepared statement of Mr. Parkinson follows:]

  Statement of Larry R. Parkinson, Deputy Assistant Secretary for Law 
Enforcement and Security, U.S. Department of the Interior, on H.R. 1038

    Thank you for the opportunity to appear before you today. My name 
is Larry Parkinson and I am the Deputy Assistant Secretary for Law 
Enforcement and Security at the Department of the Interior. I am here 
to present the Department's views on H.R. 1038--the Public Lands Fire 
Regulations Enforcement Act of 2003.
    We want to thank Congressman Tancredo and the co-sponsors of H.R. 
1038 for their recognition of this issue and their efforts to reduce 
destructive and costly human-caused wildfires. We support the goal of 
H.R. 1038. However, we would like to work with the Committee to address 
changes that we believe would ensure consistent application of 
penalties among other bureaus and services within the Department that 
are also impacted by the devastating effects of human-caused fires and 
to ensure the bill's effectiveness in deterring such behavior.
    After the devastating effects of the 2000 and 2002 fire seasons, we 
are all keenly aware of the destructive nature of wildland fire. The 
effects are even more tragic when these fires are caused by human 
beings. The resulting loss of life and property ultimately changes 
lives forever. For example, the Hayman fire, which was started on July 
2, 2002 and took 17 days to control, destroyed more than 137,000 acres 
at a cost to taxpayers of $39.1 million. Six hundred structures were 
destroyed, including 133 private residences. Similarly, as a result of 
the Rodeo-Chediski fire which began on June 18, 2002 and took 20 days 
to control, 455,000 acres burned at a total cost to taxpayers estimated 
at $50 million. That fire destroyed 450 homes. As these figures amply 
demonstrate, the results of these human-caused fires can be 
devastating.
    As currently drafted, H.R. 1038 applies to lands managed by the 
Bureau of Land Management (BLM), National Park Service (NPS), and the 
USDA Forest Service. The bill states that violations of the rules 
regulating the use of fire by visitors and others on these lands would 
be punishable by a fine of not less than $1,000 or imprisonment for not 
more than one year, or both, if the violation results in damage to 
public or private property.
    Currently, the BLM and NPS operate under different rules for 
criminal penalties. For the NPS, similar to the USDA Forest Service, 
these violations are classified as Class B misdemeanors, which may 
result in a fine of up to $5000 or up to six months in prison. Class B 
violations are strict liability in nature, which means that intent need 
not be proved. For BLM, such violations are currently classified as 
Class A misdemeanors, which may result in a fine of up to $100,000 or 
imprisonment of up to one year in prison. For Class A violations one 
must demonstrate that the party knowingly violated the law. It is 
important to note that the current penalties do not mandate a minimum 
fine for either Class A or Class B misdemeanors.
    We understand that the Department of Justice will be providing the 
Committee a letter that will describe a number of technical and 
substantive issues that will need to be addressed for this bill to 
accomplish its goal. Additionally, as the Department of Justice (DOJ), 
not the Department of the Interior, makes the final decision on 
prosecutions affecting penalties for such criminal violations and is an 
integral participant in all prosecutorial decisions and subsequent 
judicial proceedings, we suggest that the Subcommittee consult with the 
Department of Justice and the Administrative Office of the U.S. Courts 
to further assess the effects this bill may have on prosecutorial 
resources within the Department and the courts.
    As noted earlier, we would like to work with the Subcommittee on 
some modifications to the bill to ensure that those who would cause 
these destructive, tragic fires know that there are serious penalties 
associated with such behavior. We would like to bring together both the 
Department of the Interior as well as the USDA Forest Service to 
discuss the effects of this bill on their programs. We want to do 
everything possible to ensure positive results in reducing human-caused 
fires and the loss of life and property destruction that so often 
result. In addition, we would like to discuss including the U.S. Fish 
and Wildlife Service and the Bureau of Indian Affairs in the bill. By 
way of background, in 2002, over 240 human-caused fires occurred within 
the National Wildlife Refuge System, of which 53 were the result of 
arson. During the period between 1992 and 2001, the Bureau of Indian 
Affairs had a total of 9,643 arson-caused fires that burned 210,586 
acres.
    H.R. 1038 calls for the use of collected fines by the affected 
agencies for the purposes stated in the bill. The Administration is 
concerned about and is currently examining the potential PAYGO affect 
of this provision.
    Thank you for your support in helping to address the many law 
enforcement challenges we face at the Department of the Interior. We 
look forward to our continued positive working relationship to improve 
our Federal law enforcement and investigative responsibilities.
                                 ______
                                 
    Mr. Renzi. Mr. Parkinson, thanks for your testimony. Moving 
now to questions from our members. I want to recognize the 
Ranking Minority Member from the great State of Washington, Mr. 
Inslee.
    Mr. Inslee. Thank you. My understanding of the bill is that 
it would effectively raise these citations to a Class A 
Misdemeanor, which I understand is a year in jail. My rusty 
recollection of criminal law is that would then give defendants 
the right to a jury trial; is that your understanding?
    Mr. Parkinson. That's correct.
    Mr. Inslee. And if we raise the fine, the automatic fine, 
to $1,000, can't we look forward to defendants then demanding a 
jury trial and prosecutors dismissing the case because of their 
case load requirements?
    Mr. Parkinson. I think that is a good observation, and that 
is why I emphasis the need to involve the Justice Department in 
these discussions, because obviously we don't want to cause 
incentives unnecessarily for people to take these kinds of 
cases to trial, and particularly we don't want to have U.S. 
Attorney's Offices backing off because they think the penalties 
are too strong.
    At the same time as the legislation is intended to do, we 
need to tell everybody, including the Justice Department, I 
think, that the penalties that are currently being meted out 
are not serious enough.
    Mr. Inslee. Well, if somebody starts a 1,000 acre fire, and 
you really believe that sanctions should be a year in jail or 
more, do we not have other charging authorities that we could 
use in those kinds of context?
    Mr. Parkinson. It depends on whether you can prove that it 
was intentionally created. This bill is focused on negligence. 
If it is an intentionally created fire, you clearly do have 
felony provisions, both Federally and state provisions, that 
allow you to seek a higher penalty.
    Mr. Inslee. So if it were mere negligence, and it burns up 
10,000 acres, is there some other charging situation where you 
could get over a year, a year or over?
    Mr. Parkinson. Not that I am aware of if it is mere 
negligence.
    Mr. Inslee. How about if it was wanton disregard?
    Mr. Parkinson. If it is wanton, yes, certainly you could. 
That would take you into felonyland and you can get much higher 
penalties than 1 year in prison.
    Mr. Inslee. I will just tell you one Congressman's 
reaction, and I have not thought a lot about this, but my 
reaction is that the cases where prosecutors are going to 
really want more than 6 months of jail time, or we would, are 
probably going to involve some element of wantonness and 
substantial destruction, where I think we probably already 
have, my sense is, an ability to charge.
    And I really do have a concern of weakening our ability to 
enforce these laws if we get into this situation. I think we 
should talk to DOJ about this to see whether my concern is a 
valid one or not.
    I guess the other question that I have is as far as a 
thousand dollars, we have a ticket program that has been really 
effective in Washington, and I think the fine is $100, I think, 
or $200. I am not sure. Is there any sort of empirical research 
on what number you need to get to have an impact on people's 
consciousness about simple things like this? Is it $1,000 or is 
it $200?
    Mr. Parkinson. I am not aware of empirical research. There 
may be some out there, and we will take a look, and if we 
identify it, we will certainly present it to the Committee. I 
would like to just comment on your observations.
    Certainly as a prosecutor, a prosecutor would certainly be 
most interested in those fires that are willfully caused. But I 
think that this really addresses a need to take seriously those 
fires that are caused not necessarily because somebody was 
engaged in arson, but in those situations where there is a 
willful violation of existing fire regulations.
    And I would not want to minimize those kinds of offenses, 
and certainly this structure would put them in a far different 
category than arson, and so you have a maximum of a year in 
prison, but it certainly--I just would not want to minimize the 
carelessness and the damage that is caused by violations of 
existing regulations.
    Mr. Inslee. So could we solve that problem by just raising 
the level of the collateral forfeiture statute to 200 or some 
number, and not change the incarceration number?
    Ms. Estill. Well, currently there are about 86 Federal 
District Courts that establish that collateral level, and the 
Forest Service, as an example, has the ability to request a 
level, but it is finally the court's decision.
    Mr. Inslee. Is it possible if my concern turns out to be 
valid about the incarceration issue, then triggering a jury 
trial, we can set a higher fine without changing the 
incarceration schedule, can we not? We could do that?
    Mr. Parkinson. Yes, we certainly could do that. By changing 
this to a 1-year misdemeanor, you do increase--there is a 
technical glitch here that I am sure was unintended, which 
appears according to the Justice Department's preliminary views 
on this, appears to set both a minimum and a maximum.
    Mr. Tancredo. If the gentleman would yield.
    Mr. Inslee. Yes.
    Mr. Tancredo. Yes, that is accurate, there was a drafting 
error, and it is addressed by the amendment.
    Mr. Inslee. By the technical amendment.
    Mr. Parkinson. But once that is rectified, which I am sure 
that it will be, that takes the maximum fine into the $100,000 
range.
    Mr. Inslee. One more question, Mr. Chair, and maybe Mr. 
Tancredo could help. Is DOJ not kind of cooperating in this? I 
am told that they were invited to this and declined to attend. 
What is the situation here? Can anyone help us on this?
    Mr. Renzi.: I am told the gentleman's statement is 
accurate. They were invited.
    Mr. Inslee. OK. Thank you.
    Mr. Renzi. I thank the gentleman from Washington. Let's do 
this. Let's adjourn temporarily for votes, and come back so 
that we don't have to rush, and let the author of the bill have 
his time for questions. We have three votes, and we are 
temporarily adjourned. Thank you.
    [Whereupon, at 12:55 p.m., the Subcommittee recessed, to 
reconvene at 2 p.m. the same day.]
    Mr. Tancredo. [presiding] The Subcommittee will come to 
order. Thank you very much for waiting through this process, 
and I apologize for the many inconveniences, but both of you 
have been around here long enough to know that is how it works. 
I have a question.
    Well, I should say first of all that a number of the 
questions that arose earlier in the discussion of the bill I 
believe have been addressed by the amendments that we have 
proposed for the bill.
    Others we are certainly willing to discuss with you. One of 
the questions that I have though, Mr. Parkinson, specifically, 
is that part of the bill that does direct the use of the fees, 
and allows for their distribution in various ways to cover the 
costs of any improvement to reimburse affected agencies, and 
increase public awareness, what is your impression of the 
efficacy of having that kind of a provision in the bill. I 
mean, does that help or does that hinder the efforts.
    I will tell you on the front end that my purpose in doing 
that originally, putting that in there, was to first of all 
make sure that we get as much publicity of this change in 
statute, or change in law, as possible, because that is the 
deterrent effect that we are hoping for.
    And second to help the agency, or to give the agency a 
little bit of incentive I guess to pursue these things 
aggressively, and that is why I was doing it that way. Now, I 
know that there is some concern that has been raised about PAGO 
and that sort of thing, but I just would like your impression.
    Mr. Parkinson. My impression is that providing an agency 
incentives to do this kind of thing is a good thing, 
particularly when it comes to public awareness, and that is one 
of the provisions in the statute, because that is a significant 
part of deterrence obviously, is educating the public.
    I think conceptually that it makes a lot of sense to 
directly have collected fines go into those kinds of efforts. 
What it does do, and it is beyond me, it does raise a precedent 
issue that I think the Administration as a whole is a little 
bit concerned about, at least concerned about taking it a 
little bit slowly.
    I know that the whole PAGO provisions, and not just in this 
statute, but those kinds of proposals in other arenas, does 
cause the Administration some general concern at broader 
levels. So I feel obligated to say that, and they are certainly 
beyond my expertise to opine about how of a precedence this 
might set for other areas.
    Mr. Tancredo. You will note that in the--and, Elizabeth, do 
you have any comments?
    Ms. Estill. I would agree with that. There has been 
precedent for returning fines to agencies, and typically the 
experience is that does work really very well in education and 
performance. So from that perspective, we like that.
    Mr. Tancredo. Thank you. I don't know if you had a chance 
to look at the amendment that I have provided for this bill. Do 
you have a copy?
    Mr. Parkinson. I have not seen that. I don't believe that 
either one of us has. I know that there was one floating.
    Mr. Tancredo. Maybe I could ask the staff to get it to you 
right away, and just have you quickly--I certainly understand 
that you don't have time to review it in-depth. But we changed 
the language specifically dealing with the term of potential 
imprisonment.
    And we use the language, ``Whether in conjunction with or 
in lieu of imprisonment authorized by such sections.'' Then 
that should not, at least as we understand it, that should not 
change the present situation. They could still--the Park 
Service could still--I mean the Forest and Park Services both 
still use the Class A.
    Excuse me, the Class B for the Forest Service and Park 
Service, and Class A for BLM, and that would therefore not 
change anything. I have no other questions, and since no one 
else is here to ask you questions, I guess that must mean we 
are finished.
    Mr. Parkinson. Thank you, Mr. Chairman.
    Mr. Tancredo. Thank you very much. I sincerely appreciate 
your testimony today and again I apologize for having to have 
you hang over here.
    Mr. Tancredo. OK. I would like for the witnesses who are 
here for H.R. 1651 to please join us. Mr. Radanovich will be 
here in just a moment to present his bill.
    As I said the sponsor of the bill, Mr. Radanovich, will be 
here shortly. We have Mr. Bob Glassman, property own; and Mr. 
Jan Perkins, Chairman of the National Advancement Committee, 
the National Council of the Boy Scouts of America; and Mr. John 
R. Fielder, of Southern California Edison. Mr. Radanovich has 
joined us, and we will go to Mr. Radanovich for an opening 
statement.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Mr. Tancredo, thank you very much. I 
apologize for being late. We are in a Medicare Mark-Up across 
the street in Commerce. But I appreciate the Subcommittee on 
Forests and Forest Health for holding this hearing on my bill, 
H.R. 1651, the Sierra National Forest Land Exchange Act of 
2003.
    And I first want to welcome my constituents who are 
testifying here today; Mr. Bob Glassman, Mr. Jan Perkins, both 
of whom are residents of my congressional district in Fresno, 
California.
    The bill that we are here to discuss would complete a land 
exchange between Mr. Glassman and property now owned by the 
Forest Service within the Sierra National Forest. The Forest 
Service has a strong desire to obtain Mr. Glassman's parcel, 
which is an 80 acre in-holding within the Sierra National 
Forest.
    Upon completion of the land exchange with the Forest 
Service, my bill states that Mr. Glassman will convey the newly 
acquired land parcel of 160 acres to the Sequoia Council of Boy 
Scouts.
    The Boy Scouts have operated a recreational camp on a 
portion of this land for over five decades. Thousands of scouts 
use the camp each year to experience outdoor activities. Owning 
the property will allow the Sequoia Council of the Boy Scouts 
to make improvements to the facilities located on this land, 
and thus allowing the scouts to provide a continued outdoor 
learning experience for young men.
    Recently, Southern California Edison approached me with 
some concerns that they have about this bill. Edison owns and 
operates a hydroelectric facility at Shaver Lake, partially 
located on the current Forest Service land to be exchanged 
under H.R. 1651.
    Specifically, Edison wants to ensure that it can continue 
to operate its hydroelectric facility in the same manner that 
it does now once the land exchange takes place. I understand 
Edison's concerns, and as a strong supporter of hydroelectric 
power, I want to make certain that their interests are 
protected.
    My bill as written has a provision under Section 2(b)(1) 
that states that the conveyance of the Federal land shall be 
subject to valid existing rights, and under such terms and 
conditions as the Secretary may prescribe.
    This language was written in-part to guarantee that 
Edison's existing rights to operate the hydro facility are 
protected after the exchange. Now, I have discussed this matter 
with most of the witnesses testifying here today on this bill, 
and though a resolution has not yet been reached, I appreciate 
and commend the willingness of both parties involved to work 
toward an acceptable solution.
    I encourage them to consider to continue along this vain, 
and offer any services that I or my staff can provide. Mr. 
Chairman, thank you again for holding this hearing, and I look 
forward to listening to the testimony of my constituents, the 
witnesses.
    Mr. Tancredo. Thank you, Mr. Radanovich. We will go right 
to that testimony.
    We will recognize Ms. Estill.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
LEGISLATION AND COMMUNICATIONS, FOREST SERVICE, U.S. DEPARTMENT 
                         OF AGRICULTURE

    Ms. Estill. Thank you again for inviting me to appear 
before the Forest Service to testify on a very important bill. 
H.R. 1651 authorizes the exchange of 160 acres of Federal land 
on the Sierra National Forest in California, with 80 acres of 
non-Federal land, within a year.
    A portion of the Federal parcel is subject to an existing 
Federal hydropower license. The Department supports H.R. 1651 
as introduced. The bill will provide for the exchange of a 
private end-holding for two isolated parcels of Federal land, 
thus improving management efficiency for the Sierra National 
Forest.
    The bill specifies the value of the Federal land to be 
$250,000 and the value of the non-Federal land to be $200,000. 
H.R. 1651 gives the Secretary the authority to accept a cash 
equalization payment in excess of the 25 percent value of 
Federal land.
    These funds shall be available for the acquisition of lands 
and interest in lands for the National Forest System in the 
State of California. The conveyance is subject to a condition 
that the recipient of the Federal land will agree to convey the 
land within a time period agreed to by the Secretary and the 
recipient to the Sequoia Council of the Boy Scouts of America. 
A conveyance will also be made subject to valid existing 
rights, including a provision to ensure the continued operation 
of the FERC license held by Southern California Edison. We 
understand that one or more amendments to this bill may be 
under consideration by the sponsor.
    We would like to work with the Subcommittee to provide our 
comments on any proposed changes to the bill. This concludes my 
statement. I will submit the entire thing for the record.
    Mr. Tancredo. Thank you, Ms. Estill.
    Mr. Glassman.

          STATEMENT OF ROBERT GLASSMAN, PROPERTY OWNER

    Mr. Glassman. Good afternoon. My name is Robert Glassman. 
My wife, Linda, and I are parties to the proposed land 
exchange. We purchased the 80 acres inside the Sierra National 
Forest in 1997 for the sole purpose of exchanging it with the 
USDA for their small lake front Chawanakee land that is part of 
our larger Boy Scout camp, located at Shaver Lake, California.
    The Boy Scouts have had their summer camp at that location 
for over 50 years, and it serves Boy Scout organizations 
throughout the State of California. The Scout Camp utilizes 
only a small portion of the 160 acres being acquired, but we 
require the entire 160 acre parcel so that the camp can exist 
even if Shaver Lake is abandoned in the future.
    My wife, Linda, and I have been active volunteers in the 
Sequoia Council of Boy Scouts of America for 15 years. I have 
served on the Executive Council of the Board all of that time. 
Both of our sons are Eagle Scouts and successful young men.
    We are convinced that their experience in the Boy Scouts 
taught them many skills and gave them the leadership traits 
that have led to their successes. Our 25 year old son, Rodney, 
is both a Ph.D. student at the University of Arizona, and is 
currently a legislative aide for Congressman Raul Grijalva.
    Our 18-year-old son, Jeremy, is a sophomore in Electrical 
Engineering at Arizona State University. We both know the 
experience of being Boy Scout parents. The Forest Service staff 
approved this Boy Scout Camp land exchange tentatively in 1995. 
Linda and I then purchased the land outside the National Forest 
for the Scout Council in 1997, and initiated the transaction in 
1998.
    We negotiated in good faith through 2001, but the 
transaction was terminated for a technical easement problem. 
The Forest Service, who also wanted the exchange to go forward, 
suggested that we contact our Congressman, and proceed with 
this bill to complete the exchange.
    We then contacted Congressman Radanovich, and worked out 
the appraised values with the Forest Service to our mutual 
satisfaction. It was determined that the consolidation of the 
80 acre in-holding further north in the mountain for the Forest 
Service Shaver Lake parcel that is not in the National Forest 
was in the public interest.
    We have spent the last 2 years working together with the 
U.S. Forest Service to create a bill acceptable for both the 
government and the Sequoia Council of the Boy Scouts of 
America, who will receive the deed to the camp land as part of 
the exchange.
    All three of our local Congressmen support our exchange. A 
few weeks ago our Congressmen received calls from Southern Cal 
Edison, who operate the hydroelectric power plant on Shaver 
Lake, and own all of the remaining undeveloped land on, in, and 
around the lake. Many thousands of acres.
    Several years ago, I was frightened by a written offer by 
Southern Cal Edison to acquire our Forest Service Camp land, 
and by their prior submittal for a Fresno County general plan 
amendment which would replace the entire Boy Scout camp with 
residential housing.
    FC has recently told us that their only current concern is 
if this small, mostly under water, land parcel is exchanged, 
and their ability to operate their power plant might be somehow 
negatively impacted.
    Based on a June 17th, 1998 letter from the U.S. Forest 
Service to Congressman Radanovich, we always understood that he 
Forest Service would have placed appropriate conditions on the 
exchange, providing for the continued use by FC of the lake so 
long as there was a lake, and they operated the hydroelectric 
system.
    After the land exchange is completed, our Scout Council can 
continue to invest significantly locally raised funds in our 
camp. We are in the process of installing a new water and sewer 
system to enhance environmental quality, and we continue to do 
that.
    This land trade is very fair to all concerned parties. As 
required by law, both trade properties have been appropriately 
valued by the U.S. Forest Service approved third-party 
appraisers.
    The exchange serves the public interest by in-filling the 
existing forest and trading away a small parcel that will never 
be part of the forest. We assure you that this proposed 
exchange has been subjected to the precise rigorous process 
that all trades should be required of in public interest land.
    I want to personally thank the Forest Service staff that 
helped make this day possible on behalf of my family and the 
other volunteer members of our Executive Council of the Boy 
Scouts. Thank you.
    [The prepared statement of Mr. Glassman follows:]

              Statement of Robert Glassman on H.R. 1651, 
                  Sierra National Forest Land Exchange

    My name is Robert Glassman. My wife Linda and I are parties to the 
proposed Land exchange. We purchased the 80 acres inside the Sierra 
National Forest in 1997 for the sole purpose of exchanging it with the 
USDA for their small lakefront Chawanakee land that is part of our Boy 
Scout Camp, located at Shaver Lake, California. The Boy Scouts have had 
their summer camp at that location for over 50 years and it serves Boy 
Scout organizations throughout the State of California. The Scout camp 
utilizes only a small part of the 160 acres being acquired, but we need 
the entire 160-acre parcel so that the camp can exist even if Shaver 
Lake is abandoned in the future.
    My wife Linda, and I have been active volunteers in the Sequoia 
Council Boy Scouts of America for 15 years. I have served on the 
executive council of the Board all of that time. Both of our sons are 
Eagle Scouts and successful young men. We are convinced that their 
experience in the Boy Scouts taught them many skills and gave them the 
leadership traits that have led to their successes. Our 25-year-old 
son, Rodney, is both a PhD. Student at the University of Arizona and a 
Legislative Aide for Congressman Raul Grijalva. Our 18-year-old son, 
Jeremy, is a sophomore in Electrical Engineering at Arizona State 
University. We know first hand the benefits of being Boy Scout parents.
    The Forest Service staff approved the Boy Scout camp land exchange 
proposal in 1995. Linda and I purchased the land inside the National 
Forest, for the Scout Council, in 1997 and initiated the transaction in 
1998. We negotiated in good faith thru 2001 but the transaction was 
terminated for a technical easement problem. The Forest Service, who 
also wanted the exchange to go forward, suggested we contact our 
Congressman and proceed with this Bill to complete the exchange. We 
then contacted Congressman Radanovich and worked out the appraised 
values with the Forest Service to our mutual satisfaction. It was 
determined that the consolidation of the 80 acre ``inholding'' (Summit 
80) for the Forest Service Shaver Lake parcel, that is not in the 
National Forest, was in the Public interest.
    We have spent the last two years working together with the USFS to 
create a Bill acceptable to both the Government and the Sequoia Council 
Boy Scouts of America who will receive the Deed to the Camp land as 
part of the exchange. All three of our local Congressmen support our 
exchange. A few weeks ago, our Congressman received calls from Southern 
California Edison (SCE), who operate the hydroelectric power plant on 
Shaver Lake and own all of the remaining undeveloped land on, in, and 
around the lake, many thousands of acres. Several years ago, I was 
frightened by a written offer by SCE to acquire our Forest Service camp 
land and by their prior submittal for a Fresno County general plan 
amendment which would replace the entire Boy Scout camp with 
residential housing. SCE has recently told us their only current 
concern is if this small mostly underwater land parcel is exchanged, 
their ability to operate their power plant might somehow be negatively 
impacted.
    Based on a June 17, 1998 letter from the United States Forest 
Service to Congressman Radanovich, we always understood that the Forest 
Service would have placed appropriate conditions on the exchange 
providing for the continued use by SCE of the lake, so long as there 
was a lake and they operated their hydroelectric system.
    After the land exchange is completed, our Scout Council can 
continue to invest significant locally raised funds in our camp. We are 
in the process of installing new water and sewer systems to enhance the 
environmental quality of both the land and the outdoor scouting 
experience for over 4,000 boys each year. We hope to build new dining 
facilities and renovate all of our campsites. Our fund raising efforts 
will now have a more solid footing based on our ownership of the 
important lakefront property. I have been assured by SCE that they will 
continue to lease the balance of our camp land for use by the Boy 
Scouts unless or until they decide to sell their property. If that 
occurs, we will raise the funds, as we have now, to purchase that 
property for our Scout camp.
    This land trade is very fair to all concerned parties. As required 
by law, both trade properties have been appropriately valued by USFS 
approved third party appraisers. The exchange serves the public 
interest by infilling the existing National Forest with the single 80 
acre parcel not now included in that area of the forest and trades out 
a smaller parcel that has no current or future value to be included in 
any National Forest. We assure you that this proposed exchange has been 
subjected to the precise rigorous process that should be required for 
all public interest land exchanges.
    I want to personally thank the Forest Service staff that helped us 
make this day possible on behalf of my family and the other volunteer 
members of our executive council of the Sequoia Boy Scout board.
                                 ______
                                 
    Mr. Tancredo. Thank you, Mr. Glassman.
    Mr. Perkins.

     STATEMENT OF JAN T. PERKINS, ESQ., CHAIRMAN, NATIONAL 
 ADVANCEMENT COMMITTEE, THE NATIONAL COUNCIL OF THE BOY SCOUTS 
                           OF AMERICA

    Mr. Perkins. Mr. Chairman and Committee Members, we 
appreciate you inviting us here to testify in support of H.R. 
1651. We would also like to thank Congressman Radanovich, 
Congressman Dooley, and Congressman Nunez, for their sponsoring 
of this legislation.
    I am Jan Perkins, from Fresno, California. I am an attorney 
practicing law there. For the past 28 years, I have been a Boy 
Scout volunteer, currently serving on the Executive Board of 
the local council, the Sequoia Council of the Boy Scouts of 
America, and also serve as the Chairman of the National 
Advancement Committee of the Boy Scouts of America.
    I am here today to testify on behalf of both the National 
Council of the Boy Scouts of America and the Sequoia Council. 
Currently, the National Council supports more than 300 local 
councils, which like the Sequoia Council in Fresno, advance the 
scouting mission and vision.
    The Sequoia Council exists to provide an educational 
program for boys, and to help instill within them the ability 
to make ethical choices. This program uses the outdoors, 
adventure, and fun, to build character, train responsible 
citizenship, and develop personal fitness.
    The service area of the Sequoia Council includes the 
Fresno, Madera, Kings, and Tulare Counties in Central 
California. The Council currently has 10,000 youth members, and 
approximately 3,500 adult volunteers.
    The Council has been designated as a quality council by the 
National Council of the Boy Scouts of America. For the past 55 
years, as has already been indicated, the Council has operated 
a long term camp on the shores of Shaver Lake. The camp is 
known as Camp Chawanakee.
    And we prepared a map over there so that you can get a look 
at it, and the numerous camping sites. As you might guess, this 
camp is extremely important to the Council's ability to provide 
programs to the youth.
    Over the past few years the camp has provided a camping 
experience for thousands of the residents of the San Joachim 
Valley, and in the past 10 years, as circumstances have 
required other camps to close, Camp Chawanakee is evolving into 
a regional camping facility.
    Indeed, last year 40 percent of our campers came from the 
Central Valley of California, and 28 percent came from Northern 
California, and 38 percent from Southern California, and the 
balance from Arizona and Nevada.
    Camp Chawanakee currently sits on two parcels of land. One 
parcel is leased to the council by the current Federal licensee 
of the Hydroelectric Project, Southern California Edison. The 
second parcel, which is the subject of H.R. 1651, is currently 
licensed to the council by the United States Forest Service.
    As has been indicated, Mr. and Mrs. Robert Glassman have 
for the benefit of the Sequoia Council, been negotiating a land 
exchange with the Forest Service. Under the terms of that 
exchange, Mr. and Mrs. Glassman will transfer an 80 acre parcel 
which they own, and which is located in the Sierra National 
Forest, to the Forest Service in exchange for the land that the 
Forest Service owns and currently licenses to the Sequoia 
council.
    Mr. and Mrs. Glassman will then immediately transfer the 
Shaver Lake property to the Sequoia Council. Ownership of this 
property and fee by the council will be a great benefit. It 
will allow the council to continue to maintain existing 
improvements and giving an impetus, because they know that 
those improvements will remain there.
    And it will also help ensure that the council will be able 
to continue to provide outdoor camping and learning experiences 
in some form into the future. We have been contacted by 
Southern California Edison. They seem concerned that the 
proposed transfer might in some way interfere, although we 
don't fully understand how, with their operation of the 
hydroelectric facility.
    Given the Forest Service's conditions to the transfer and 
what has been testified to today, the council just does not 
understand how there could be a problem. We believe that the 
Radanovich-Dooley-Nunez legislation expressly protects the 
existing rights of all parties affected by the exchange, 
including the hydroelectric project of Southern California 
Edison.
    However, let me assure the Committee that Congress and the 
SCE that it is not the intent of the Sequoia Council, nor will 
it ever been the intent of the Sequoia Council, to interfere in 
any way with the current licensee's operation or any further 
licensee's operation of the hydroelectric facility at Shaver 
Lake.
    Our only intent is to continue to serve youth by helping to 
develop character, responsible citizenship, and personal 
fitness through the outdoor programs offered at Camp 
Chawanakee. Congress has expressed a similar intent in the 
National Forest Organizational Camp Fee Improvement Act of 
2003, which is Public Law 108-7, where they said that 
organizational camps such as those administered by the Boy 
Scouts, Girl Scouts, and faith-based and community-based 
organizations, provide a valuable service to young people, 
individuals with disabilities, and their families by promoting 
physical, mental, and spiritual health through activities 
conducted in a natural environment.
    We urge the passage of H.R. 1651 as a means of upholding 
the expressed intent of Congress, and to allow the Sequoia 
Council to continue to serve the youth of its service area. 
Thank you.
    [The prepared statement of Mr. Perkins follows:]

Statement of Jan Perkins, Esquire, on behalf of the National Council of 
    the Boy Scouts of America, Chairman of the National Advancement 
   Committee, The Sequoia Council of the Boy Scouts of America, Vice 
           President and Executive Board Member, on H.R. 1651

Introduction
    Thank you, Mr. Chairman, for inviting me to testify before your 
Subcommittee on H.R. 1651, the Sierra National Forest Land Exchange Act 
of 2003. I also want to express my gratitude and thanks to Congressman 
Radanovich, Congressman Dooley, and Congressman Nunes for leading this 
effort for the Boy Scouts of America (BSA).
    I am testifying today on behalf of the National Council of the Boy 
Scouts of America, for which I am the Chairman of the National 
Advancement Committee. I am also representing The Sequoia Council of 
the Boy Scouts of America, for which I am the Vice President and an 
Executive Board Member. I have lived in Fresno, California for 30 years 
with my family, Peggy, Jennifer, Rebecca, Sarah, Michael, Robert, and 
Ryan. I was a Boy Scout as a youth, and have been involved in Scouting 
as an adult for the past 25 years. My three sons are all Eagle Scouts, 
and all four of us attended Scout camp at Camp Chawanakee. I am truly 
honored to sit before you today to speak about Scouting, Camp 
Chawanakee, and the generous land exchange that will help Scouts in my 
home town, throughout California, and across the Western United States.
The Sequoia Council
    The Sequoia Council is a 501(c)(3) not-for-profit organization. We 
offer the educational, value-driven program of the BSA to different age 
groups, from 1st Grade to adulthood. The Sequoia Council has a history 
of more than 80 years of helping to shape and mold the values and 
character of youth in the Central Valley of California. The 
organization continues to help strengthen youth, families, and 
communities through comprehensive programs for its members.
    The Sequoia Council is a service area within the BSA that covers 
Fresno, Madera, Kings and Tulare Counties in California. We serve over 
10,000 youth members, their parents, and the 3,500 adult volunteers who 
volunteer their time to Scouting. A map of our service area is attached 
to this testimony. The Council is further divided in Districts, which 
are service areas run by a committee of volunteers and counseled by a 
full-time District Executive. District volunteers service the units by 
providing advice and training, maintaining membership growth, promoting 
camping, raising money for even better service, providing programs such 
as camporees, recognition dinners, day camps, ``together-we-plan'' 
conferences, and promoting the good Boy Scout name within the 
community.
Scouting Promotes Healthy Development
    As a former Scout yourself, you know that the extensive nature of 
BSA's Cub Scouting, Boy Scouting, and Venturing programs allows the 
organization to address six critical elements of healthy youth 
development.
    <bullet> LStrong personal values and character: Specific character-
related values that parents see communicated through Scouting to their 
children include respecting the environment, staying away from drugs, 
helping at home, learning moral values, learning self-reliance, 
becoming involved in community service, meeting important physical and 
emotional needs, and developing empathy with other people in need.
    <bullet> LPositive sense of self-worth and usefulness: Scouting 
provides youth with a safe, friendly environment, a sense of belonging, 
involvement in community service, improved self-esteem through goals 
setting, and an atmosphere of teamwork.
    <bullet> LCaring and nurturing relationships with parents, other 
adults and peers: Scouting programs provide positive role models and 
encourage family togetherness. Scouts receive encouragement to do their 
best by a leader. Scouting parents and their children do projects 
together. They read together. Scouts talk to their parents about what 
they learn
    <bullet> LA desire to learn: Scouting programs provide youth the 
opportunity to develop new interests, build reading skills that are the 
foundation for higher learning, and do things they have never done 
before, often because they didn't have the opportunity.
    <bullet> LProductive/creative use of time: Scouting allows youth to 
constructively use their time in child-centered learning activities 
such as art, music, theater, and religion. Boys overwhelmingly cite the 
Scouting program activities as the key reason for joining scouting. A 
clear majority of parents of Scouts say that Scouting is a positive 
alternative to watching TV and playing video games.
    <bullet> LSocial adeptness: Scouting helps youth develop social 
skills and competencies by providing opportunities for them to plan and 
lead activities, work in groups, and interact with youth of different 
racial and ethnic backgrounds. In a year's time, a majority of parents 
report that the program helped their children to respect the feelings 
of others, learn social skills, learn to be a team player, participate 
in democratic decision making, and resolve conflicts with peers.
    In 2000, BSA celebrated the welcoming of its 100 millionth Scout. 
Scouting has served and will continue to serve a significant portion of 
America's youth.
Public Service
    Scouting also instills in its participants--youths and adults 
alike--a strong sense of public service. In May of this year, BSA and 
the Department of Homeland Security (DHS) announced a partnership to 
promote preparedness in both youths and adults. Building on DHS's Ready 
Campaign, Scouting participants will go through age-specific training 
for individual, family, and unit preparedness.
    In February 2003, the BSA and the American Red Cross signed a 
first-ever agreement between the two organizations that will enable 
more youth and adults to ``be prepared'' for lifesaving situations in 
their local communities. Local BSA councils, in conjunction with local 
Red Cross chapters, will train and certify BSA volunteers to teach 
potentially lifesaving courses in first aid, CPR, emergency response, 
and lifeguard training.
    Answering President George W. Bush's call for each child in America 
to earn or give $1 to be used for providing food and medical help for 
the children of Afghanistan, the BSA fully endorsed the effort. 
Previously, during World War II, the Scouts collected almost two 
billion pounds of metal, rubber and other materials for the war effort 
and sold more than $1.957 billion in war bonds. Scouts more recently 
completed more than 200 million hours of community service working with 
America's Promise. Since the tragedies of September 11, Scouts have 
supported hundreds of local efforts to assist those in need.
    In the next few years, the National Park Service will be the 
recipient of one million hours of volunteer service through the 
Presidents' Summit for America's Future and the BSA. The Summit is 
aimed at bringing America to a new level of commitment to volunteer 
service. The project is a small part of the 200 million service hours 
pledged to America from the BSA.
Scouting and Congress
    I have provided with this testimony a letter from the Boy Scouts of 
America endorsing H.R. 1651, which includes a list of Members of the 
107th Congress who are now or were involved in Scouting. When the list 
was compiled, more than 50 percent of the Members serving had 
participated in Scouting. We believe that this is not just a 
coincidence. The values that Scouting instills in youths, their 
families, and our volunteers have a very real impact on our society.
Services Provided by the Sequoia Council
    The Sequoia Council provides a wide array of necessary services to 
the youth and units within our Council. Most families realize that it 
costs $20 to $50 to keep their child in Scouting for a year. The 
Sequoia Council spends an additional $125 to $175 per year in support 
of each youth in our council. The Council provides professional staff 
and office support staff services, two service centers, liability 
insurance for adults and accident insurance for youth, training for 
adults, camping opportunities (which is the focus of H.R. 1651), 
including a Cub Scout day camp, program equipment for camps, 
recognition and awards, a Trading Post, advancement and training 
records, and special activities.
    As a not-for-profit organization, we rely heavily on user fees and 
charitable contributions to provide our services. Camping and 
activities provide forty-five percent of our revenue. Donations provide 
another 26 percent. Sales of products account for 12 percent, and the 
balance comes from endowments, special projects, and the United Way.
    Our revenues are returned to the Scouts, their families, and our 
community. Summer camp and activities use 45 percent of our revenue. 
Direct service to units uses another 43 percent. Fundraising and 
administration use the balance.
    We serve our 10,000 Scouts with 12 professional staff members, a 
Board of Directors comprised of adults and youths, and a number of 
committees that oversee the overall operation of the council in 
accordance with the national directives.
Camp Chawanakee
    This year, the Sequoia Council will have operated Camp Chawanakee 
on the shore of Shaver Lake, in Fresno County, California, for 56 
years. In that time, Camp Chawanakee has provided great adventure and 
environmental learning opportunities for scouts and the council and has 
evolved with hundreds of thousands of dollars of improvements.
    In recognition of our benefit to the community, the Fresno County 
Board of Supervisors issued a proclamation in December 2002 calling for 
the preservation of the camp. A copy of that proclamation is included 
with my testimony.
Camp History
    Camp Chawanakee sits among towering pines on a peninsula that is 
fondly referred to as ``The Point.'' Conservation efforts that began in 
the 1950's have preserved Camp Chawanakee and have turned what used to 
be a muddy little creek into a flower studded meadow, framed by ferns 
and filled in with several species of grasses. These conservation 
efforts include an expansion of our recycling program, drastic 
reduction in the use of disposable eating equipment and a stepped up 
emphasis on low impact camping.
    Opening of the Camp was made possible by the use of World War II 
surplus, including a jeep that was used until 1980. The original camp 
was located above today's rifle range, which itself, is the old camp 
parking lot. Each site had its own waterfront, evidence of which can 
still be seen today in the form of old docks and boards from towers 
that occasionally wash up on shore.
    The Point was not utilized as a program and camping area until the 
late 1970's. Originally the Point was known as ``Woodbadge Point,'' 
because that was the premier area for Woodbadge training in the area. 
Baden Powell Lodge was built as a dining hall and training facility. 
The lodge was remodeled in 1994-95 into a scoutmaster's lounge, meeting 
room, medical facility and volunteer housing. The area that is now used 
as the medical facility once served as the Camp Trading Post and 
Handicraft Area. A map of the camp land leased from the Federal 
licensee is included with my testimony.
    The camp has developed many traditions over the last 50 years. The 
most pronounced is the Tribe of Chawanakee. This is a service 
organization for boys and adults of all ages. Other traditions include 
a high quality program in a pristine setting, and weekly campfires that 
some consider to be the best show in the Western Region of the Boy 
Scouts of America.
Conservation
    Camp Chawanakee is a leader among Boy Scout camps in the area of 
conservation. The present day meadow was originally a muddy little 
creek and wash. Due to concerted efforts by scouts in the 1950's and 
1960's, the wash was fitted with water holding logs, which in turn 
encouraged the lush plant growth that we now see as we enter the main 
camp area. A recycling program was implemented in the late 1980's. In 
1997 the camp adopted the ``emergency use only'' policy on disposable 
eating equipment.
Programs
    The camp has adopted many programs over the years. Originally the 
camp focused on the waterfront, high adventure and wrangler programs. 
Since then, the camp has evolved into a center for all scouting 
activities including younger boy programs as well as older boy 
programs. The horse program was dropped in the 1960's but revived in 
1991. Project C.O.P.E. (Challenging Outdoor Personal Experience), an 
outdoor program stressing personal fitness, was added in 1987 to 
challenge the older boys to new heights. The ``Trail to First Class'' 
was added in 1991 to help younger scouts advance through the early 
ranks of scouting. The Mountain Man program was added in 1991. The 
purpose of this program was to teach outdoor survival skills to scouts. 
Kayaks made their appearance at our waterfront area in 1997. The 
Mountain Bike program came in 1999. In 2000, a high adventure program 
called Leave No Trace made its debut for older scouts.
    Camp Chawanakee changed to the patrol site method of camping in 
1995, in order to promote the Scouting way. The patrol method lent 
itself to a return to family style feeding, patrol competition and a 
feeling of togetherness. Camp Chawanakee's program now ranks as one of 
the most comprehensive in the nation.
    While many other camps in California have closed in recent years, 
Camp Chawanakee has grown to become one of the premier scouting camps 
in the nation. It provides a beautiful setting, an ideal altitude, a 
central location, a tradition of exceptional programs, and a quality 
staff that maintains and operates the camp.
Camp Users
    Camp Chawanakee is open year round to scouts, church and service 
organizations, businesses and other community groups. Over the years, 
well over 250,000 youths and leaders from California, Nevada and 
Arizona have attended Camp Chawanakee; recently, summer camp attendance 
has exceeded 3,000.
    Our participants come from all over the State of California. While 
the largest percentage of participants (40 percent) come from the 
Central Valley, we also draw large numbers from Northern (28 percent) 
and Southern California (38 percent). Scouts from Nevada and Arizona 
are frequent participants in our programs. The Council's goal is to 
make Camp Chawanakee available to Scouts from all over the Western 
United States.
Continued Improvements
    The Sequoia Council is currently making further improvements Camp 
Chawanakee to enhance public safety and first responder services, to 
expand sanitation and dining facilities, and to improve the Camp's 
facilities for younger campers and their families. As one example of 
our plans, we are currently included in the State of California's 
Multiyear Project Priority List for a $250,000 Safe Drinking Water 
State Revolving Fund grant for a 60,000 gallon water storage tank and 
pipeline.
Camp Lands
    Camp Chawanakee sits on two parcels of land. The Sequoia Council 
has a Special Use Permit from the United States Forest Service (USFS) 
for use of approximately 2-2/3 acres of an approximately 160-acre plot 
of Federal land. Since the Camp's inception, the Council has also 
leased approximately 110 acres from the current Federal licensee of a 
hydroelectric project located on Shaver Lake, in Fresno County, 
California. The Federally licensed hydroelectric project on Shaver Lake 
is partially located on the Federal land proposed for conveyance. Other 
parts of the project are located of privately held lands.
    On this land, the Sequoia Council has built facilities to provide 
equestrian opportunities, a 52 foot climbing wall, fishing, tomahawk 
and firearm ranges, sailing, a ropes course, canoeing, kayaking, 
swimming and snorkeling, and motorboating. The Camp has 22 camp sites 
as well as a director's cabin, a warehouse, water tanks, and other 
improvements.
H.R. 1651
    Congressman George Radanovich, of Mariposa, has led the effort to 
authorize the land exchange since July 2002 when he introduced H.R. 
5302 in the 107th Congress. Congressman Cal Dooley, of Visalia, joined 
Mr. Radanovich as a cosponsor in October 2002. In the 108th Congress, 
Congressman Devin Nunes, of Pixley, joined the effort as an original 
cosponsor with Messrs. Radanovich and Dooley in January 2003. After 
extensive and very close collaboration with the USFS, the legislation 
was revised and reintroduced by all three of our champions in April 
2003.
    The purpose of the legislation is to provide for the permanent 
enjoyment by the Boy Scouts of America of the Federal land to be 
exchanged for privately held lands within the Sierra National Forest.
Background
    In the early 1990s, the USFS decided that a land exchange involving 
an approximately 80-acre inholding within the Sierra National Forest 
(Summit 80) would help it advance its Land and Resource Management Plan 
for the forest. The inholding is entirely surrounded by National Forest 
Service land, is habitat to wildlife, contains cultural resources, and, 
given its proximity to the Sierra Summit Ski Area, would likely be 
developed in the future.
    In 1993, the Sequoia Council considered a land exchange to acquire 
the USFS land it uses under a Special Permit. At that time, the Council 
decided that it would be unable to complete such a transaction.
    In 1997, Mr. Robert Glassman, a member of our Board of Directors, 
purchased Summit 80 for the express purpose of completing the land 
exchange with the USFS and transferring the Federal land to the Sequoia 
Council. That exchange is the subject of H.R. 1651.
Summary
    H.R. 1651 directs the Secretary of Agriculture to convey 
approximately 160 acres of land to Mr. Glassman upon receipt of an 
offer of Summit 80 and a cash equalization payment. The conveyance is 
conditioned upon three factors:
    <bullet> LThe protection and preservation of all existing valid 
rights, inclusive of the United States, Mr. Glassman, the Boy Scouts, 
and other affected parties not directly involved in the exchange;
    <bullet> LMr. Glassman's subsequent conveyance of the Federal land 
to the Sequoia Council; and
    <bullet> LAny other terms and conditions that the Secretary may 
prescribe.
    In conversations with the USFS, we understand that it would 
complete this transaction only after these requirements are fully met, 
as is the intent of Congress. When asked if the USFS believed that any 
additional requirements should be added to the legislation, we were 
informed that no additional requirement were necessary or needed.
    H.R. 1651 assigns value to both pieces of property. According to 
the USFS, without the legislation the Federal land would be appraised 
at a significantly lower value. The legislation would require Mr. 
Glassman to pay to the Secretary the difference in value of the lands, 
or approximately $50,000. Those funds would then be available to the 
Secretary without further appropriation to acquire additional public 
land in California under the Sisk Act. Mr. Glassman would also be 
responsible for all direct costs associated with processing the land 
exchange
Benefit to the Scouts
    We view the acquisition of this property as our version of the 
American Dream: we would become homeowners after half a century of 
renting. Shaver Lake currently inundates the majority of the land. 
However, if in the future Lake Shaver is drained, the Sequoia Council 
will be able to reclaim the land and expand our facilities further.
    Access to Shaver Lake is critical for many of the programs at Camp 
Chawanakee. In many respects, Chawanakee is a water-focused camp. We 
offer fishing, sailing, canoeing, kayaking, swimming and snorkeling, 
and motorboating. We train Scouts and adults in water safety, 
conservation, and land-water border reclamation. As I mentioned 
earlier, a major camp project in the 1950s and 1960s reclaimed a wash 
area, stopping the erosion of the soil, and today we have a healthy 
meadow that benefits the camp and the community.
Federally-Licensed Hydroelectric Facility
    Approximately 110 acres of Camp Chawanakee is leased from the 
licensee of a Federally licensed hydroelectric project. Chawanakee and 
the hydroelectric project have co-existed and complemented each other 
for over 50 years.
    The Sequoia Council supports the continued operation of the 
project. The project enhances the camping experience of those who 
attend the Camp, and we hope the project continues to provide both 
camping benefits and low cost power to the State of California for 
years to come.
    We understand that the licensee of the facility is concerned that 
H.R. 1651 may not adequately protect and preserve its rights to operate 
and maintain the project. We also understand that its license requires 
the licensee to acquire the ``right of use in perpetuity'' of all lands 
necessary or appropriate for the maintenance and operation of the 
project. The Sequoia Council has no intention to nor will it interfere 
with the project's operation or maintenance. If H.R. 1651 is enacted 
into law, we would commit to working in good faith with the licensee to 
allow its use of the land in perpetuity on terms similar to those 
required by the USFS. Chawanakee would not be the same without Shaver 
Lake.
Summary
    Camp Chawanakee has been the summer camp of hundreds of thousands 
of young Scouts, some of the Committee's members' staff among them. The 
enactment of H.R. 1651 will allow the Sequoia Council to continue to 
offer the same experiences and opportunities to Members of the 208th 
Congress and their staff. We recognize the concerns of affected parties 
not directly involved in the exchange, and we commit to you, Mr. 
Chairman, this Subcommittee, and Congress to ensure that the intent of 
the legislation, to protect and preserve all existing rights, is 
upheld.
Attachments
    <bullet> LMap of Sequoia Council Service Area
    <bullet> LLetter from the Boy Scouts of America endorsing H.R. 1651
    <bullet> LFresno County Board of Supervisors Proclamation endorsing 
preservation of Camp Chawanakee
    <bullet> LMap of Camp Chawanakee
    [GRAPHIC] [TIFF OMITTED] T7805.001
    
    [GRAPHIC] [TIFF OMITTED] T7805.002
    
    [GRAPHIC] [TIFF OMITTED] T7805.003
    
    [GRAPHIC] [TIFF OMITTED] T7805.004
    
    [GRAPHIC] [TIFF OMITTED] T7805.005
    

    Mr. Tancredo. Thank you very much, Mr. Perkins.
    Now, finally, Mr. Fielder.

 STATEMENT OF JOHN R. FIELDER, SENIOR VICE PRESIDENT, SOUTHERN 
                   CALIFORNIA EDISON COMPANY

    Mr. Fielder. Thank you and good afternoon, Mr. Chairman, 
and Committee members. My name is John Fielder, and I am a 
senior vice president with Southern California Edison. We 
appreciate the opportunity to speak to H.R. 1651.
    Let me begin by making our position perfectly clear, I 
hope. We support the transfer of this land to the Boy Scouts 
through Mr. Glassman, assuming that we can preserve the right 
that we currently have to operate the hydro facility located on 
Shaver Lake.
    And from what I hear this afternoon, that should not be a 
problem. The amendments that we have proposed we believe do 
exactly that, and that is give us the rights in the legislation 
to continue to operate our hydroelectric facilities just as we 
have in the past.
    Why is this important to Edison? We have operated our Big 
Creek Hydro Facilities since 1928. It produces about a thousand 
megawatts of electricity serving approximately a million homes 
in Central and Southern California.
    All of the land associated with our hydroelectric 
facilities is either owned outright by Edison, or is licensed 
from the Forest Service under the authority of the Federal 
Power Act, and our FERC hydroelectric license.
    The land transfer that is at issue in this legislation to 
the Sequoia Council will be the first time that a private owner 
will own property within our hydroelectric project boundaries, 
and so we are kind of plowing new ground in that regard.
    We are concerned that a private party could change SCE's 
rights. The ownership by a private party could change SCE's 
rights with respect to the way that water is managed in the 
Shaver Lake area, particularly Shaver Lake, and thereby impair 
hydroelectricity.
    But I think it is important to understand that of the 160 
acres that are being transferred under this exchange, 
approximately 148 are basically in Shaver Lake. That is, that 
they are under water most of the time. So when you operate a 
hydrofacility, what we do through the operation of our dams, 
and our penstocks, and the tunnels in the area, is that we 
manage the water levels in the lakes to run through the power 
houses to produce the power.
    And so any potential interference with the water usage 
through docks, or marinas, or any other kinds of usage that 
would impair our ability to use this water, could present a 
serious threat to our hydroelectric operation.
    I am not sure--and what I have heard today is that there 
should not be any problem in resolving this issue because I 
understand everybody wants us to be able to operate our 
hydroelectric facilities, and nobody wants to encumber our 
rights.
    We have had a long history with the Boy Scouts. This Camp 
Chawanakee that was mentioned, most of it is provided under a 
lease by Edison to the Boy Scouts, about 100 acres, and we have 
leased that to them for over 40 years.
    The Boy Scouts are obviously responsible tenants, and it is 
a very camp ground, and there are thousands of Boy Scouts that 
have used it in the past, and we expect will use it in the 
future.
    We have been talking to the Sequoia Council about a 10 year 
extension, and are even looking forward to talking about a 30 
year extension of this lease, which would guarantee the use of 
the camp ground at least for that period.
    And I can tell you that in spite of a problem that we had 
with one of our map drawers that drew a map erroneously that 
showed this land being potentially developed, which is hard to 
imagine, we have no plans for that property in the foreseeable 
future.
    So we think that using it as a camp ground for the Boy 
Scouts is a fine use of that property, and we are prepared to 
enter into a lease of up to 30 years. But specifically what do 
the amendments that we have proposed do? There are basically 
two.
    One is that it imposes an easement. It asks that the Forest 
Service put an easement to preserve the rights that we 
currently have to operate the hydroelectric facilities and a 
deed restriction that mirrors that easement.
    And we believe that this will accomplish what we have 
talked about doing; that is, to enable us to use the water in 
the lake without nay encroachment so that we can operate the 
hydrofacilities.
    Second, since there is no provision in the bill as it 
exists today to prevent a private owner from subsequently 
reselling the land to another private owner, and I am not 
suggesting that the Boy Scouts would do that.
    But with land, you have got to make these provisions 
explicit, and we have a provision that says if the Boy Scouts, 
Sequoia Council, in the future determine that they want to sell 
this land to another private party that Edison would have the 
right of first offer, so that we would be able to purchase the 
land back instead of having it go someplace else. That 
concludes my comments.
    Mr. Tancredo. Right on the money.
    Mr. Fielder. We urge the Committee to consider our 
amendments, and we look forward to answering questions.
    [The prepared statement of Mr. Fielder follows:]

         Statement of John R. Fielder, Senior Vice President, 
            Southern California Edison Company, on H.R. 1651

    Good morning, Mr. Chairman and Members of the Committee. I am John 
R. Fielder, Senior Vice President of Regulatory Policy and Affairs of 
Southern California Edison (SCE). SCE appreciates the opportunity to 
present testimony concerning H.R. 1651, the proposed conveyance of 
Federal land in the Sierra National Forest to the Sequoia Council of 
the Boy Scouts of America (Council).
    SCE's purpose today is to express our support for H.R. 1651, 
provided that the bill is amended to ensure that SCE maintains the same 
ability it now possesses regarding the SCE-owned hydroelectric project 
located in part on the U.S. Forest Service (Forest Service)-owned land 
that is the subject of the proposed land exchange (the ``Federal 
land''). Specifically, we request that the Congress amend H.R. 1651 to 
ensure that SCE continues to have the right to enter upon, occupy, and 
use the Federal land for hydroelectric project purposes as we do today. 
The Committee needs to specify in the law that the Council or any other 
non-Federal owner cannot interfere or prohibit SCE's existing rights to 
own, operate, and maintain the Shaver Lake reservoir for those power 
production purposes. Such amendments will ensure the continued 
operation of a reliable, renewable, and low-cost source of electricity 
for Central and Southern California residents, while allowing the 
Council to receive the Federal lands.
    To provide context to my testimony, let me briefly explain SCE's 
role in operating the Big Creek Hydroelectric System.
Southern California Edison
    SCE is the nation's second-largest investor-owned electric utility 
company, serving more than 11 million people within a 50,000-square 
mile area in Central and Southern California. Headquartered in 
Rosemead, California, SCE is a regulated public utility that serves 
more than 4.5 million business and residential customers and has 
provided high quality, reliable electric service for more than a 
century.
Big Creek Hydroelectric System
    SCE owns, operates, and maintains the Big Creek Hydroelectric 
System. This System consists of a series of dams, tunnels, powerhouses, 
and reservoirs tucked within the 1.3 million acre Sierra National 
Forest. A network of tunnels and penstocks connects six man-made lakes 
and many water diversions with the System's nine powerhouses. After 
producing enough power to serve one million homes, the water returns to 
the San Joaquin River, a major source of both municipal and 
agricultural water throughout the San Joaquin Valley.
    The Big Creek System was originally envisioned in October of 1902 
and has been producing power since 1923 to address the energy needs of 
Central and Southern California. While construction began in 1921, the 
Big Creek System expanded over the years to meet an increasing demand 
for electricity. Each new facility tapped the same water at different 
elevations, earning the System the reputation as ``the hardest working 
water in the world.'' As engineered, the Big Creek System maximizes 
electricity production efficiency, producing up to 1,056 MW of clean, 
renewable energy. The System is located on National Forest land and 
SCE-owned land. SCE holds seven licenses from the Federal Energy 
Regulatory Commission (FERC) for Big Creek System operation. These FERC 
licenses give SCE the right to use the National Forest land (including 
the Forest Service-owned Federal land that is the subject of H.R. 1651) 
for hydropower project purposes.
    H.R. 1651 provides for the exchange of land between the Forest 
Service and the Council. The land exchange will result in Council 
ownership of about 160 acres of property at SCE's Shaver Lake 
reservoir, with approximately 147.5 acres underwater in the lake and 
almost 13 acres of land along the Shaver Lake reservoir shore. The 
Federal land that is to be exchanged is part of Section 30, as shown on 
the map included as Attachment 1.
    The Shaver Lake reservoir is an integral component of SCE's Big 
Creek System. Built by SCE in 1928, the reservoir covers 2,186 surface 
acres, and holds over 135,000 acre feet of water when full. Water 
released from the reservoir travels through a series of tunnels and 
penstocks generating power at four different powerhouses. Importantly, 
when Shaver Lake Reservoir is near capacity, SCE may operate the 
``pumped storage'' aspect of the project. The Eastwood powerhouse is 
capable of pumping water back through the reservoir to another small 
reservoir at night, taking advantage of inexpensive power. Then, during 
the peak energy use hours the next day, the water returns to Shaver 
Lake reservoir through the Eastwood powerhouse generating 200 MW of 
low-cost, renewable hydropower. After leaving the SCE Big Creek System, 
the water continues its natural course down the San Joaquin River into 
the U.S. Bureau of Reclamation's Millerton Reservoir for distribution 
to central valley farmers, businesses, and residences.
    Before initial operation of Shaver Lake reservoir in 1928, SCE 
purchased approximately 15,000 acres of privately held lands in the 
area, virtually all the land surrounding the Shaver Lake reservoir, 
including the vast majority of the land inundated by reservoir 
operations. The 147.5 acres of Federal land included within the 
proposed land exchange is owned by the Forest Service and constitutes 
less than seven percent of the total reservoir surface area. The Forest 
Service owned this property well before SCE commenced operations at the 
Shaver Lake reservoir. The Federal Power Act and the FERC license for 
Project No. 67 grant SCE the right to use the Federal land.
    If H.R. 1651 is signed into law, the Forest Service will no longer 
own the Federal land, and the Council will become the first private 
owner of the lands underneath the Shaver Lake Reservoir. The FERC 
license does not give SCE the right to use privately-owned lands. SCE 
is required under its FERC project license to obtain those rights. 
Thus, without sufficient protection, the land exchange proposed in H.R. 
1651 to a private party could significantly change SCE's rights to 
operate and maintain the reservoir for power production purposes. 
Accordingly, to assure the availability of this renewable and clean 
generating resource, H.R. 1651 must be amended to protect these rights. 
Our concerns with the proposed legislation are explained in detail 
below.
Land Exchange Concerns
    With appropriate amendments, SCE supports the conveyance of the 
Federal land identified in H.R. 1651 to the Council. Our goal is to 
ensure that such a conveyance not result in any interference with SCE's 
right to operate and maintain Shaver Lake reservoir, or any other part 
of the Big Creek System.
    Shaver Reservoir is a part of the Project No. 67 license issued by 
FERC to SCE. As with all FERC-licensed hydroelectric projects located 
on government lands, the Federal land within the Project No. 67 
boundary has been designated as a ``power site reservation'' pursuant 
to Section 24 of the Federal Power Act in recognition of the Federal 
property's beneficial public use for the renewable generation of 
electricity. Section 24 provides that land necessary for the generation 
of hydroelectric power shall be ``reserved from entry, location, or 
other disposal <SUP>1</SUP>'' unless otherwise directed by FERC or 
Congress.
---------------------------------------------------------------------------
    \1\ Section 24 of the Federal Power Act; 16 U.S.C. Sec. 818 
(emphasis added)
---------------------------------------------------------------------------
    This means that the Forest Service is unable to transfer the 
Federal land without FERC or Congressional approval. Any FERC decision 
to approve the conveyance of the Federal land within a power site 
reservation may only occur if FERC determines that such conveyance 
would not injure or destroy the hydroelectric power development 
purposes associated with the land. To make that determination, Federal 
Power Section 24 provides for FERC to impose restrictions on the land 
transfer as necessary to protect the power purposes of the land. 
Further, FERC will ensure that such a conveyance is subject to a 
``reservation of the right to enter upon, occupy, and use'' the Federal 
land for power development purposes. In 1920, when Congress enacted the 
Federal Power Act, these Section 24 protections were designed to 
protect hydroelectric project owners from the adverse affects of 
potential uses or conveyances of government lands. The H.R. 1651 land 
exchange, as currently proposed, does not offer the protections 
afforded by Section 24. Thus, Congress should accept the SCE-proposed 
amendments to H.R. 1651 to ensure the Shaver Lake reservoir receives 
the same protections envisioned in Federal Power Act Section 24.
    For example, the bill does not clearly provide SCE with a 
continuing right to use the 147.5 acres of Federal land within project 
boundaries for project purposes nor does it prohibit the new land owner 
from interfering with such project purposes. As with any hydroelectric 
project reservoir, water levels in Shaver Lake are raised and lowered 
depending on energy generation needs, water runoff, and state water 
rights. Without any legislative protection in the current bill, the new 
owner of the Federal land may attempt to prohibit SCE from inundating 
the Federal land or may impose conditions on the level, use and flow of 
water on the Federal land to be conveyed. As described earlier, no 
private person or organization currently owns inundated or shoreline 
property that would adversely affect SCE's water rights or the Shaver 
Reservoir operations. Without the appropriate amendments, this bill 
could allow a private entity to control water-levels and continued 
operations of this hydroelectric facility, in turn offsetting long-term 
power availability for California consumers.
    Moreover, the transfer of ownership of this land to the Council 
does not preclude the organization from subsequently selling or 
subleasing the Federal land to either a for-profit user more interested 
in maximizing returns than maintaining the property in its current 
natural state, or to a person who may use the land in a manner 
incompatible with hydroelectric resources.
The Existing Council Camp
    For the past 40 years, SCE has leased to the Council approximately 
100 acres of land known as Camp Chawanakee. This land, which SCE has 
owned for about 80 years, is immediately adjacent to the 160 acres of 
Federal land subject to the proposed land exchange. The Camp Chawanakee 
land is not a part of the land exchange, nor will the land exchange 
create any rights in this land for the Council. The Federal land 
proposed for conveyance by H.R. 1651 contains only about three acres of 
land actually used by the Council as part of Camp Chawanakee. The 
Forest Service issues a permit to the Council for those three acres. 
The other Federal land is not permitted for use by the Council and is 
not currently a part of Camp Chawanakee. Thus, H.R. 1651 by itself 
would not significantly further the Council's stated goal of securing 
Camp Chawanakee.
    SCE is in the process of negotiating a new 10-year license or lease 
with the Council for the 100 acres. A longer term lease is also 
feasible. The Council has also expressed an interest in purchasing our 
land. However, Southern California Edison does not want to sell the 
land we lease to the Council and we are presently precluded from 
selling the land by California State Law. Furthermore, the land is 
currently included within the Project No. 67 licensed boundaries and is 
subject to California Public Utilities Commission regulation. The Camp 
Chawanakee lands are an integral part of the recreation component of 
Project No. 67, designed to meet FERC recreation objectives for 
hydroelectric projects. Thus, SCE is unwilling and unable to sell Camp 
Chawanakee, and since the Big Creek System is an essential part of our 
long-term resource base, we would oppose any efforts to force or 
require such a sale.
    SCE has offered to sell the Council other unencumbered SCE-owned 
lands at alternative sites in the immediate area. However, the Council 
has refused this offer and has expressed an intent, in writing and 
orally, to use the land acquired through H.R. 1651 as a way to 
``protect the status quo'' of its lease of Camp Chawanakee and to 
``provide the Council with the assurance that the Camp will not be 
closed.'' SCE is concerned that these statements suggest that the 
purpose of the proposed land exchange is to unduly influence future SCE 
decisions regarding the continued lease, sale, or other disposition of 
the Camp Chawanakee property. To ensure that SCE is not placed into 
this position with the Council in the future, H.R. 1651 must be amended 
to ensure that the Council, or any subsequent owner, cannot interfere 
with SCE's operations at the Shaver Lake reservoir.
SCE Proposed Amendments
    To eliminate our concerns with the current legislation, SCE is 
proposing amendments to the bill that would ensure the continued use of 
the 147.5 acres of inundated Federal land for Big Creek Hydroelectric 
System purposes and would grant SCE the first opportunity to purchase 
the Federal land if the Council ever sought to sell the forest service 
land for a profit. These amendments are shown in Attachment 2.
    First, the SCE-proposed amendments include the requirement for an 
easement and a deed restriction that would protect our right to 
maintain and operate Shaver Reservoir without interference by the new 
owner of the Federal land. These amendments also fulfill the objectives 
of Federal Power Act Section 24.
    Second, the amendments would grant SCE a Right of First Offer if 
the Council seeks to transfer an interest in the Federal land. The 
Right of First Offer ensures that the Council will be able to transfer 
the land on terms acceptable to the Council, but gives SCE the first 
opportunity to buy the land. The amendments still allow for the 
conveyance of Federal land to the Council from the initial recipient of 
the Federal land. Yet, these amendments also ensure that Council 
ownership will not interfere with our operation and maintenance of the 
Big Creek Hydroelectric System.
Council Proposed Amendments
    The Council has also proposed certain amendments to H.R. 1651. 
Unfortunately, these amendments are unsatisfactory to SCE. First, the 
amendments would not give SCE the right to operate the property on the 
Federal land to be conveyed. Article 5 of the Project No. 67 license 
requires that SCE obtain fee title or the permanent right to use the 
land for project purposes. Second, the amendments too narrowly define 
the prohibition on interference with project purposes. Over 100 years 
of experience dealing with private property owners who have electric 
utility assets on their property has shown SCE that without explicit 
definition of the terms ``operation and maintenance'' in the quit claim 
deed, disagreements over the nature of SCE's rights to operate its 
utility assets will occur. Thus, SCE desires that this legislation be 
absolutely clear so that 20 years from now, no argument will arise over 
the meaning of the grant and prohibitions in the Federal land deed to 
the Council. Third, the Council's proposed amendments do not include 
these restrictions in the quit claim deed to the Federal land. 
Recording such covenants in a quit claim deed and an easement is 
standard real estate practice and discloses the requirements to the 
public and any future owner of the Federal land. Such provisions ensure 
that future property owners will follow these same requirements. 
Finally, the Council's proposed amendments do not offer the owner of 
the hydroelectric project the right to purchase the Federal land under 
terms and conditions acceptable to the Council or any subsequent owner.
Conclusion
    For the continued successful operation of the Big Creek 
Hydroelectric System, current Federal law and regulation of Federal 
lands, if conveyed to the Council, must be articulated in H.R. 1651. 
H.R. 1651 must not result in the degradation of SCE's rights to operate 
and maintain its hydroelectric system in the future. Accordingly, our 
proposed amendments to H.R. 1651 will permit the Council to obtain the 
lands it desires, while at the same time preventing any interference 
with the operations of our hydroelectric facilities in contravention of 
Federal Power Act Section 24. We ask you to let the ``hardest working 
water in the world'' continue to meet the energy needs of Central and 
Southern California. H.R. 1651 should be amended as SCE proposes.
    SCE appreciates the opportunity to participate in this hearing. 
Thank you for your consideration of our comments.
[GRAPHIC] [TIFF OMITTED] T7805.006

[GRAPHIC] [TIFF OMITTED] T7805.007

[GRAPHIC] [TIFF OMITTED] T7805.008

[GRAPHIC] [TIFF OMITTED] T7805.009

[GRAPHIC] [TIFF OMITTED] T7805.010

[GRAPHIC] [TIFF OMITTED] T7805.011

[GRAPHIC] [TIFF OMITTED] T7805.012


    Mr. Tancredo. Thank you, Mr. Fielder, and the Chair has no 
questions, and we will go directly to Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Tancredo. I have got about 
six questions, if I can go ahead and ask them.
    Mr. Tancredo. Absolutely.
    Mr. Radanovich. OK. Thank you very much, and also for the 
valuable testimony here today. I do want to ask about six 
questions just to get the information down on the record. And, 
Ms. Estill, if I could begin with you, I would like to be able 
to do that.
    When the Forest Service performs land exchanges with 
private parties, what types of terms and conditions has the 
Secretary of Agriculture placed on this conveyance as 
authorized by this bill?
    Ms. Estill. Well, they would be subject to valid existing 
rights, and we would ensure that the hydropower operation could 
continue on. Now, the specific language I can get to you, but 
that in essence that is what it would do.
    Mr. Radanovich. Would you please get me the specific 
information?
    Ms. Estill. Certainly.
    Mr. Radanovich. If you would, I would like to have it as 
part of the Congressional record here. That would be just fine 
and I would appreciate it. Another question is would the 
Secretary, in making the conveyance authorized by 1651 protect 
and preserve Southern California Edison's right under the 
Federal Power Act, or FERC regulations, and any other 
applicable law, to operate and maintain the hydroelectric 
facility located at Shaver Lake?
    Ms. Estill. That is certainly the intent, and we would try 
to do that.
    Mr. Radanovich. OK. Thanks. Why is the assessed valuation 
of the 148 acres of underwater land set at zero?
    Ms. Estill. This has not actually gone through an appraisal 
process. The values were set by the bill.
    Mr. Radanovich. OK. Great. Thanks. Could the Forest Service 
grant Edison an easement for the use of the 148 acres for 
hydropower purposes before issuing a deed to Mr. Glassman?
    Ms. Estill. Just a second.
    Mr. Radanovich. That's fine.
    Ms. Estill. We could do it in the deed as a restricted 
covenant in the deed.
    Mr. Radanovich. The Forest Service could do that?
    Ms. Estill. The Forest Service could do that.
    Mr. Radanovich. OK. Thank you. Mr. Fielder, thank you, too, 
for your testimony here, and I want to ask this question. Has 
Southern California Edison found precedent in law for the 
amendments that you seek in H.R. 1651, and if so, would you 
please be able to provide such a precedent prior to the mark-up 
of this bill, which will be the next step of this bill after 
this hearing.
    Mr. Fielder. It is my understanding that this is a unique 
situation, where we are using a Federal statute to transfer the 
property, and there are property rights associated with it.
    I think the Forest Service normally can do this without a 
Federal law. So it is a little unique. We will look for 
precedence and see whether there is anything and get it to you 
certainly.
    Mr. Radanovich. OK. Thank you very much. Mr. Perkins, and 
welcome to the Committee as well. The testimony given by 
Southern California Edison says that you plan to use H.R. 1651 
to unduly influence the future Edison decisions regarding the 
continued lease, sale, or otherwise disposition of Camp 
Chawanakee property. Is it true?
    Mr. Fielder. No, and I have expressed that to their 
attorney in a meeting that we had with our executive committee 
of our board of directors, that we have no intention of forcing 
them. And quite frankly that is not the way that the Boy Scouts 
do business, and we respect their rights to make decisions 
about their property.
    Mr. Radanovich. Very good. Thank you. I think that is about 
the only questions that I have. I would just say in closing 
that I know that there is some details to be worked out, and we 
are certainly not going to be able to work it out during this 
hearing of this bill.
    It did take quite a long time to get this hearing 
established, and so I don't want to be the one responsible for 
limiting the progress of this issue. So if I could encourage 
both Southern California Edison and the Boy Scouts to work this 
out to mutual satisfaction to get what I think everybody 
recognizes as a worthy project done, it would be much 
appreciated.
    And if we can get it done and move to mark-up from here, 
and get the bill finished this year, that would be just a 
wonderful thing. So I would encourage both of you, and I 
applaud you and thank you for working together; and if you 
would continue to do so and get this resolved, it would be much 
appreciated. Thank you very much. Thank you, Mr. Chairman.
    Mr. Tancredo. Thank you, Mr. Radanovich. I would thank the 
panel very much for their attendance here, and members may have 
additional questions for the witnesses, and we would ask that 
you please respond to those in writing. The hearing record will 
be held open for 10 days for those responses, and thank you all 
very much.
    Mr. Tancredo. Now I want to introduce Congressman Rob 
Bishop, the First District of Utah, sponsor of H.R. 511, for 
his opening statement, followed by Ms. Estill. I recognize Mr. 
Bishop for 5 minutes.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. I appreciate it. Mr. Chairman, this is a bill 
that this House passed last year, but the Senate in their 
wisdom did not get to it. And that has been remedied this time 
around, and so if you pass the Mount Naomi bill one more time, 
you will never Mount Naomi again as long as you live, unless 
you want to blow it up or something.
    The Mount Naomi Wilderness is a little over 44,000 
wilderness acres in Northern Utah. It makes it one of the 
larger wilderness areas, and one of the problems that it faces 
is that it is very close to the city of Logan, and that means 
that when it was created there is a utility corridor that goes 
through the edge of this wilderness area that includes 
telephone, water, utility structures.
    They actually were there before the wilderness area was 
created and obviously since that is not a definition of 
wilderness area, they don't really exist, but you can 
understand how Logan City has a difficult time of maintaining 
those facilities that don't exist in this area causes a 
problem.
    One of the solutions would be very simply to take these 31 
acres, which is the smallest full print that is possible, and 
in which this utility corridor exists, revert it back to where 
it was, and then give to the Forest Service or create on the 
other side actually, the southern side of this wilderness area, 
another 31 acres which does fit the criteria of wilderness.
    Therefore, the acreage would not take place, and Logan City 
would be able to facilitate their lines, electricity would flow 
evenly to Logan City and their football team, and Utah State 
would never again have an excuse for losing games in their 
stadium.
    This I believe has the excitement and enthusiastic 
endorsement of the Forest Service, as well as Logan City, Cash 
County, and it seems to be a simple and common sense solution 
to a problem. That is under 5 minutes, right?
    Mr. Tancredo. Yes.
    Mr. Bishop. Good.
    [The prepared statement of Mr. Bishop follows:]

  Statement of The Honorable Rob Bishop, a Representative in Congress 
                  from the State of Utah, on H.R. 511

    Mr. Chairman, thank you for including this important bill in 
today's legislative hearing and thank you for the opportunity to 
testify.
    Mount Naomi is located in the Wasatch-Cache National Forest near 
Logan Utah. The Wilderness area is composed of 44,523 acres, making it 
one of the largest wilderness areas in the state of Utah.
    Mount Naomi was designated as a Wilderness Area by the Utah 
Wilderness Act of 1984, in a bill sponsored by my predecessor and the 
former Chairman of the Resources Committee, Congressman James V. 
Hansen. However, since its creation, complications in the management of 
the Wilderness Area have arisen due to the proximity of the wilderness 
boundary to the Logan City, Utah, limits. A utility corridor, 
containing water and power lines, runs through the southwest portion of 
the Wilderness Area. You can only begin to imagine the problems this 
has presented to the utility owners and the Forest Service in seeking 
to gain access to and manage this portion of the Wilderness Area.
    The utility corridor existed prior to the designation of the 
wilderness area. It's inclusion in the Wilderness Area was a 
congressional oversight. A simple adjustment of the wilderness boundary 
will provide a common-sense solution to both the utility corridor's 
maintenance and the Forest Service's management problems. This 
legislation will adjust the wilderness boundary to exclude the 31-acre 
parcel that houses the utility corridor. The new boundary will follow 
the natural contour lines of Mount Naomi. To compensate for this 
adjustment, and prevent a net loss of wilderness, the Forest Service 
has identified a separate 31-acre parcel with wilderness 
characteristics located adjacent to the southern boundary of the 
wilderness area. This needful adjustment will provide a manageable, 
natural boundary for the wilderness area. This legislation has the 
support of the local Forest Service Office, Logan City, and people of 
Cache County, and is the smallest area needed to alleviate the problem 
with the utility corridor.
    Additionally, a small portion of the Bonneville Shoreline Trail has 
been proposed within the 31 acre area adjacent to the Logan City 
limits. This portion of the trail would connect with a number of other 
trails in the Bonneville Shoreline Trail system, and provide 
outstanding recreational opportunities to thousands of people each 
year. When completed, the trail system will travel along the shoreline 
of the ancient Lake Bonneville, which stretched from northern Utah to 
southern Utah, near present-day Cedar City. This trail system has been 
incredibly popular for hikers, mountain bikers, and equestrian traffic. 
This is the only portion of this trail system that lies within the 
wilderness area.
    This is good legislation and I thank my colleagues on the Committee 
for holding this hearing today. I urge its quick discharge out of the 
Subcommittee and Committee, so that this long-standing problem may be 
corrected.
    Again, thank you for the opportunity to testify this morning. I 
look forward to working with you on issues of mutual interest.
                                 ______
                                 
    Mr. Tancredo. Ms. Estill.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
     LEGISLATION, AND COMMUNICATIONS, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. The Department supports H.R. 511, the bill that 
would adjust the boundary amount in the Naomi Wilderness and 
the Wasatch-Cache National Forest in Utah. We believe that the 
boundary adjustments will add a higher level of wilderness 
values, including solitude, scenery, and pristine qualities.
    The adjustment will provide for the alignment of Bonneville 
Shoreline Trail, a multi-county recreational trail, designed 
predominantly for heavy, non-motorized use, including mountain 
bikes, that wouldn't be allowed in the wilderness area, and 
which does not conform to the criteria of a wilderness trail.
    The boundary adjustment would also eliminate the need for 
the power line easement within the wilderness area, which is 
another non-conforming use. So we wholeheartedly support this.
    Mr. Tancredo. Thank you very much, Ms. Estill.
    Does the gentleman have any other questions?
    Mr. Bishop. The gentleman has no further questions.
    Mr. Tancredo. Then I think we have taken care of this one. 
So, thank you very much again. Actually, I kept apologizing to 
you earlier because I thought I kept you over. I didn't realize 
that you were the permanent witness.
    Ms. Estill. I am your permanent witness in five bills 
today.
    Mr. Tancredo. OK. Thank you very much. Thank you, Mr. 
Bishop. I want to introduce Congressman Mike Thompson, from the 
First District of California, the sponsor of H.R. 708, for his 
opening statement, followed again by Ms. Estill.

 STATEMENT OF HON. MIKE THOMPSON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Thompson. Thank you, Mr. Chairman. I am here as you 
stated to provide testimony on my bill, H.R. 708, and this 
measure is supported by the property owner whose property it 
affects, as well as the National Forest Service.
    And what it attempts to do is resolve a longstanding 
problem, one that I have been working on not only the entire 
time that I have been in Congress, but I think when I was first 
elected to the State Senate when this issue first came about, 
and there is a private property owner that purchased a ranch, a 
longstanding ranch in my district, and operated it more as a 
recreational venue than a ranching venue.
    And after a while they had some problems with the Forest 
Service, and a dispute over a road that was eroding, and the 
property owner wanted to close off the road, and the Forest 
Service said, no, it is our property, and you can't close it 
off. And he said, no, I have got a deed right here that says 
that it is my property.
    And so the dispute ended in a new survey which found out 
not only was the road the property of the Forest Service, but 
the land upon which the barn was built was the Forest Service 
property also.
    And so we have been working to try and resolve this. We 
finally came up with the idea that the Forest Service is going 
to just sell 120 acres to the landowner, and then they will use 
that money to buy more appropriate property.
    This 120 acres, the way it is situated, is of no or little 
value to the Forest Service, and if it is taken away from the 
property owner, it is an area that is of no value to him 
either, and this is an amicable way, and an equitable way, to 
resolve the issue.
    And as I pointed out, everybody supports it; the Forest 
Service, the landowner, the county, and anyone else who knows 
about it and understands the situation. And I would really 
appreciate your favorable consideration of the bill.
    [The prepared statement of Mr. Thompson follows:]

Statement of The Honorable Mike Thompson, a Representative in Congress 
               from the State of California, on H.R. 708

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to provide testimony on H.R. 708. I appreciate the 
Committee's continuing leadership on sound resources legislation.
    H.R. 708 would resolve a long-standing problem regarding the 
property boundary between the Mendocino National Forest and the Faraway 
Ranch in rural Northern California. The National Forest Service and the 
local landowners jointly support H.R. 708.
    The Faraway Ranch is a tract of several hundred acres of private 
land in Lake County, California, surrounded by Mendocino National 
Forest lands. The original ranch was settled and patented as private 
land in 1884, prior to establishment of the National Forest. Various 
dwellings, roads, fences, water impoundments and other improvements 
have been constructed on the ranch over the years. The current owner 
purchased the main portion of the ranch in 1989.
    An updated survey of the area conducted in the 1990's revealed 
substantial errors in the official historical survey. However, because 
the past owners had relied on the historical survey for the last 
century, long-standing buildings unintentionally encroached onto 
Federal lands.
    The corrected property boundary lines are in an untenable location 
for the ranch owner and for the public use and management of the 
adjacent Mendocino National Forest lands. This bill adjusts the 
property boundaries to eliminate the encroachments and provides a 
buffer around the ranch dwelling area. A buffer will enhance safety and 
provide reasonable privacy for public hunting, camping and motorized 
vehicle use and access on national forest lands in the area. The new 
boundaries outlined in this legislation will also simplify and reduce 
administrative expenses for the Forest Service.
    The ranch owner and Forest Service have been working cooperatively 
for several years on land exchange proposals to provide adjusted 
boundaries between the ranch and the Mendocino National Forest. In 
1999, the parties reached a basic agreement regarding the configuration 
of bordering lands that should be transferred to the ranch to resolve 
the encroachment and property boundary management issues. These parcels 
total approximately 120 acres.
    This bill provides for prompt transfer of the 120 acres of national 
forest lands to the current ranch owner, in exchange for a payment 
equal to the fair market value of these lands according to Federal 
appraisal standards. The ranch owner will pay the direct costs of the 
transfer, including the title work, survey and appraisal. The payments 
will be deposited in the Treasury fund established by Public Law 90-
171, known as the Sisk Act.
    This bill designates these funds for use by the Forest Service to 
purchase priority non-Federal lands adjacent to other national forest 
lands in California.
    No significant environmental or other issues have been identified 
regarding transfer of the specified 120 acres to the Faraway Ranch. 
These parcels are not considered to be of particular value for 
retention in the Mendocino National Forest. National forest boundary 
maintenance costs, use conflicts and safety risks will be reduced at 
the ranch location. The priority lands to be acquired by the Forest 
Service will be identified based on their proximity and contribution to 
national forest lands, wildlife habitat and for other uses. These lands 
will be purchased from willing sellers. Boundaries will be simplified 
and national forest values will be enhanced at the locations where the 
Forest Service acquires these lands.
    Thank you for this opportunity to discuss this important issue with 
the Committee. I would now like to answer any questions you may have.
                                 ______
                                 
    Mr. Tancredo. Thank you, Mr. Thompson.
    Ms. Estill.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
     LEGISLATION, AND COMMUNICATIONS, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. With your permission, I will submit my entire 
testimony for the record, and jump to the bottom line.
    Mr. Tancredo. Permission granted.
    Ms. Estill. Which is that the Department supports this 
bill, because it will improve the management efficiency for the 
forest, while recognizing the value of the public's assets.
    I would like to also say that as H.R. 708, the Mendocino 
National Forest Land Exchange, and H.R. 1651, the Sierra 
National Forest Land Exchange, both illustrate that the 
Department has a number of facilities and pertinent 
administrative lands in excess to agency needs.
    The Fiscal Year 2004 budget contains a proposal for the 
establishment of a facilities acquisition and enhancement fund 
that would enable the Secretary to sell such units, and utilize 
the proceeds from those sales for the acquisition or 
development of land and improvements for administrative 
purposes.
    Funds collected under this authority would address backlogs 
and administrative consolidations, while improving 
efficiencies.
    The Department will submit proposed legislation to 
establish this fund in the upcoming weeks, and it might reduce 
your time and my time as a witness on these kinds of bills in 
the future.
    Mr. Tancredo. Thank you very much.
    Mr. Thompson. I would just like to add that this measure 
passed both this Committee and the House in the last Congress. 
Unfortunately, it was part of an Omnibus effort that didn't do 
as well over in the Senate. So it is a bill whose time has come 
a number of times, and it would help both the Service, as well 
as the private property owner if we could expedite this action. 
Thank you.
    Mr. Tancredo. Thank you very much, Mr. Thompson, and thank 
you very much, Ms. Estill, and if there is no further business 
to come before the Subcommittee, then we will stand adjourned.
    [Whereupon, at 2:38 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
